<html>
<title> - HHS AND THE CATHOLIC CHURCH: EXAMINING THE POLITICIZATION OF GRANTS</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]




 
  HHS AND THE CATHOLIC CHURCH: EXAMINING THE POLITICIZATION OF GRANTS

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                            DECEMBER 1, 2011

                               __________

                           Serial No. 112-124

                               __________

Printed for the use of the Committee on Oversight and Government Reform


         Available via the World Wide Web: http://www.fdsys.gov
                      http://www.house.gov/reform


                  U.S. GOVERNMENT PRINTING OFFICE
73-939                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="a2c5d2cde2c1d7d1d6cac7ced28cc1cdcf8c">[email&#160;protected]</a>  


              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                 DARRELL E. ISSA, California, Chairman
DAN BURTON, Indiana                  ELIJAH E. CUMMINGS, Maryland, 
JOHN L. MICA, Florida                    Ranking Minority Member
TODD RUSSELL PLATTS, Pennsylvania    EDOLPHUS TOWNS, New York
MICHAEL R. TURNER, Ohio              CAROLYN B. MALONEY, New York
PATRICK T. McHENRY, North Carolina   ELEANOR HOLMES NORTON, District of 
JIM JORDAN, Ohio                         Columbia
JASON CHAFFETZ, Utah                 DENNIS J. KUCINICH, Ohio
CONNIE MACK, Florida                 JOHN F. TIERNEY, Massachusetts
TIM WALBERG, Michigan                WM. LACY CLAY, Missouri
JAMES LANKFORD, Oklahoma             STEPHEN F. LYNCH, Massachusetts
JUSTIN AMASH, Michigan               JIM COOPER, Tennessee
ANN MARIE BUERKLE, New York          GERALD E. CONNOLLY, Virginia
PAUL A. GOSAR, Arizona               MIKE QUIGLEY, Illinois
RAUL R. LABRADOR, Idaho              DANNY K. DAVIS, Illinois
PATRICK MEEHAN, Pennsylvania         BRUCE L. BRALEY, Iowa
SCOTT DesJARLAIS, Tennessee          PETER WELCH, Vermont
JOE WALSH, Illinois                  JOHN A. YARMUTH, Kentucky
TREY GOWDY, South Carolina           CHRISTOPHER S. MURPHY, Connecticut
DENNIS A. ROSS, Florida              JACKIE SPEIER, California
FRANK C. GUINTA, New Hampshire
BLAKE FARENTHOLD, Texas
MIKE KELLY, Pennsylvania

                   Lawrence J. Brady, Staff Director
                John D. Cuaderes, Deputy Staff Director
                     Robert Borden, General Counsel
                       Linda A. Good, Chief Clerk
                 David Rapallo, Minority Staff Director


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on December 1, 2011.................................     1
Statement of:
    Sheldon, George, Acting Assistant Secretary, Administration 
      for Children and Families, U.S. Department of Health and 
      Human Services; and Eskinder Negash, Director, Office for 
      Refugee Resettlement, Administration for Children and 
      Families, U.S. Department of Health and Human Services.....    42
Letters, statements, etc., submitted for the record by:
    Connolly, Hon. Gerald E., a Representative in Congress from 
      the State of Virginia, prepared statement of...............   103
    Cummings, Hon. Elijah E., a Representative in Congress from 
      the State of Maryland:
        Commercial Sexual Exploitation Report....................    37
        Letter dated December 1, 2011............................    39
        Prepared statement of....................................    30
        Stolen Smiles Report.....................................    35
        Trafficking in Persons Report June 2011..................    33
    Issa, Hon. Darrell E., a Representative in Congress from the 
      State of California:
        Attorney General's Annual Report.........................    76
        Memo dated September 9, 2011.............................     6
    Sheldon, George, Acting Assistant Secretary, Administration 
      for Children and Families, U.S. Department of Health and 
      Human Services, prepared statement of......................    45
    Smith, Hon. Christopher H., a Representative in Congress from 
      the State of New Jersey, prepared statement of.............     2


  HHS AND THE CATHOLIC CHURCH: EXAMINING THE POLITICIZATION OF GRANTS

                              ----------                              


                       THURSDAY, DECEMBER 1, 2011

                          House of Representatives,
              Committee on Oversight and Government Reform,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:40 a.m. in Room 
2154, Rayburn House Office Building, Hon. Darrell E. Issa 
(chairman of the committee) presiding.
    Present: Representatives Issa, Burton, Platts, McHenry, 
Jordan, Chaffetz, Walberg, Lankford, Amash, Buerkle, Labrador, 
DesJarlais, Gowdy, Ross, Guinta, Farenthold, Kelly, Cummings, 
Towns, Maloney, Norton, Kucinich, Tierney, Connolly, Quigley, 
Davis, Welch, and Speier.
    Also present: Representative Smith of New Jersey.
    Staff present: Richard A. Beutel, senior counsel; Robert 
Borden, general counsel; Molly Boyl, parliamentarian; Gwen 
D'Luzansky, assistant clerk; Adam P. Fromm, director of Member 
services and committee operations; Linda Good, chief clerk; 
Frederick Hill, director of communications and senior policy 
advisor; Christopher Hixon, deputy chief counsel, oversight; 
Sery E. Kim, counsel; Mark D. Marin, director of oversight; 
Christine Martin, counsel; Laura L. Rush, deputy chief clerk; 
Jeff Solsby, senior communications advisor; Rebecca Watkins, 
press secretary; Peter Warren, legislative policy director; 
Kevin Corbin, minority deputy clerk; Ashley Etienne, minority 
director of communications; Jennifer Hoffman, minority press 
secretary; Carla Hultberg, minority chief clerk; Lucinda 
Lessley, minority policy director; Dave Rapallo, minority staff 
director; Mark Stephenson, minority senior policy advisor/
legislative director; and Cecelia Thomas and Ellen Zeng, 
minority counsels.
    Chairman Issa. This hearing will come to order.
    The first order of business is that I ask unanimous consent 
that Representative Chris Smith of New Jersey be able to join 
us from the dais and ask questions of the witnesses and that 
his written statement be included in the record. Without 
objection, so ordered.
    [The prepared statement of Hon. Christopher H. Smith 
follows:]

[GRAPHIC] [TIFF OMITTED] T3939.001

[GRAPHIC] [TIFF OMITTED] T3939.002

    Chairman Issa. Before I begin today, I want to also include 
in the record four documents the committee has received, not 
from Health and Human Services pursuant to the committee's 
request for documents, but from whistleblowers, as I want to 
make sure that the committee's majority and minority both have 
them. We had not released these documents, but these documents 
became available to the press and had hoped to have full and 
complete documents from HHS beforehand. I will put the rest in, 
but ask unanimous consent they be placed in the record and 
distributed to all Members at this time.
    Mr. Cummings. Mr. Chairman, I don't want to object, but I 
haven't seen the documents. Can we see them before we let them 
in?
    Chairman Issa. Of course. The gentleman reserves. The 
documents will be distributed to all the Members.
    For clarity, these are internal documents, as far as we can 
tell authenticated, that have been printed out, and Politico 
has them, the Washington Post has them. We don't know how many 
other newspapers have them. Again, the nature of the beast were 
these were pursuant to our investigation. They were not 
delivered to us by HHS, which is a separate matter of 
investigation since they were fully due and should have been 
presented to us, were withheld, and I would only say that as 
the ranking member evaluates them and the other members of the 
committee, these are documents in the opinion of the chair that 
are a failure to deliver pursuant to our request and as such 
are subject to additional inquiry by the committee.
    The committee takes seriously that documents should not be 
released by whistleblowers who are afraid that basically these 
documents may have been deliberately withheld.
    Mr. Cummings. Mr. Chairman, so these are HHS documents that 
would have come in if HHS had adhered to the subpoena?
    Chairman Issa. That is our opinion of the documents, having 
looked at them. Again, HHS will have an opportunity to say why 
they withheld these documents. I am releasing them at this time 
to the committee because I don't believe that we should go 
forward with this hearing without having as many documents as 
are available. If they are available to the press, even though 
they haven't been formally published, certainly they are likely 
to be seen by the public. I don't want any Member here to go 
through a hearing and then find out he didn't know what he 
didn't know.
    Mr. Cummings. I just wanted to be clear, we are just 
reserving for just a few minutes so we can have time to review 
them.
    Chairman Issa. Okay. I would also ask the committee staff 
to make them available to HHS staff so if there is any question 
of authenticity, we would like to have that resolved early on 
in the process. I don't think these are the most determinative 
documents in the world, but it is the nature of our committee. 
We are an investigative committee and professionalism, at least 
on our part, is essential.
    Mr. Cummings. And just in fairness to HHS, and I know that 
they will have an opportunity to respond, is the time up for 
them to submit documents?
    Chairman Issa. Yes, it is.
    Mr. Cummings. All right. Thank you.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T3939.003
    
    [GRAPHIC] [TIFF OMITTED] T3939.004
    
    [GRAPHIC] [TIFF OMITTED] T3939.005
    
    [GRAPHIC] [TIFF OMITTED] T3939.006
    
    [GRAPHIC] [TIFF OMITTED] T3939.007
    
    [GRAPHIC] [TIFF OMITTED] T3939.008
    
    [GRAPHIC] [TIFF OMITTED] T3939.009
    
    [GRAPHIC] [TIFF OMITTED] T3939.010
    
    [GRAPHIC] [TIFF OMITTED] T3939.011
    
    [GRAPHIC] [TIFF OMITTED] T3939.012
    
    [GRAPHIC] [TIFF OMITTED] T3939.013
    
    [GRAPHIC] [TIFF OMITTED] T3939.014
    
    [GRAPHIC] [TIFF OMITTED] T3939.015
    
    [GRAPHIC] [TIFF OMITTED] T3939.016
    
    [GRAPHIC] [TIFF OMITTED] T3939.017
    
    [GRAPHIC] [TIFF OMITTED] T3939.018
    
    [GRAPHIC] [TIFF OMITTED] T3939.019
    
    [GRAPHIC] [TIFF OMITTED] T3939.020
    
    [GRAPHIC] [TIFF OMITTED] T3939.021
    
    [GRAPHIC] [TIFF OMITTED] T3939.022
    
    [GRAPHIC] [TIFF OMITTED] T3939.023
    
    [GRAPHIC] [TIFF OMITTED] T3939.024
    
    Chairman Issa. Although, we will be happy to have 
supplemental discovery at any time.
    With that, the Oversight Committee exists for two purposes: 
We secure the fundamental principles, first, that Americans 
have a right to know that the money Washington takes from them 
is well spent; and, second, Americans deserve an efficient, 
effective government that works for them. Our duty on the 
Oversight and Government Reform Committee is to protect these 
rights.
    Our solemn responsibility is to hold government accountable 
to taxpayers because taxpayers have a right to know what they 
get from their government. We will work tirelessly in 
partnership with citizen watchdogs to deliver the facts to the 
American people and bring genuine reform to the Federal 
bureaucracy. This is the mission of the Government Oversight 
Committee.
    Two weeks ago, this committee approved a bill, authored by 
subcommittee chairman, Mr. Lankford, to require transparency in 
the grant making process. Today we are presented with an 
example of why this bill is so important, to ensure that 
agencies are held accountable and responsible stewards of the 
taxpayers' funds, and in this case the taxpayers' funds and the 
taxpayers' execution of these funds, to the greatest benefit of 
the beneficiaries they are intended to, as we attempt to 
understand the decisionmaking process used to award these 
grants, a process that from the outside observer's perspective 
appears to be inexcusably politically altered.
    The grant went to four organizations--I have a mistake in 
the written statement. It went to three out of four that 
applied. The committee has learned many disturbing facts about 
the process. The most experienced and top-rated national 
applicant was not selected for this award. Other organizations, 
including ones that submitted much lower rated proposals, were 
somehow funded.
    The process was delayed for months while the agencies 
struggled to find ways, in our opinion, to inject a new 
criteria to alter the funding process. That criteria was not in 
fact, as has been reported by HHS, a stipulation or 
requirement. Just the opposite. Although the new statement was 
part of the process, it was clearly understood that applicants 
who would not meet that ``new stipulation'' were still eligible 
to apply; meaning there was an expectation that if they were 
the most qualified or among the most qualified, they would 
still be awarded.
    Notwithstanding that, a political appointee, unconfirmed, 
effectively a czar, interjected themselves and made a decision 
that changed the outcome of this grant from the decision that 
otherwise would have been made by career civil service 
employees. This undermines the integrity of the process and 
violates the spirit, if not the letter of the Federal law and 
regulations that prohibits discrimination on the basis, in this 
case, of deep religious beliefs that were well-known before the 
applicant applied.
    If we are going to have a litmus test that ``Catholics need 
not apply,'' if to administer--and I repeat, administer a 
procedure, we need to say so, we need to codify it in the law 
and we need to stand the scrutiny of the Supreme Court. It is 
clear to this Member, you cannot stand the scrutiny of the 
Supreme Court to simply make an organization that has a 
religious-based belief completely ineligible without a review 
by the Court. The Court would not side with Health and Human 
Services in this case.
    Now, many will couch this as this is a somewhat more 
complicated issue. This Member does not believe that it is 
complicated, but I do believe that this committee has a 
responsibility that goes far beyond the religious-related 
question that may be brought up on both sides of the dais. Just 
the opposite. This committee has a responsibility to see that 
the process is predictable at the end, based on the applicant's 
expectations at the beginning. Whether it is in fact the award 
of tanker contracts by the Air Force, whether it is green 
energy proposals, whether in fact it is an underwriting of a 
purchase of a steel mill somehow deemed to be green, this 
committee has an obligation to look at grants and awards and 
make sure that they are predictable in a nonpartisan, non-
ideological way.
    This committee chairman is not of that conclusion. Perhaps 
today we will get some answers that will help us see the 
nuances, but as of this point, it is the chair's view that in 
fact the system is more of an earmark, in the case of this 
award, a Presidential appointee earmark, than in fact a 
competitive grant. Congress has, both majority and minority, 
stopped the practice of earmarks. We must ensure that the grant 
process can never be called an earmark process with preferences 
based on ideology or political employees' whims.
    With that, I recognize the ranking member for his opening 
statement.
    [The prepared statement of Hon. Elijah E. Cummings 
follows:]

[GRAPHIC] [TIFF OMITTED] T3939.025

[GRAPHIC] [TIFF OMITTED] T3939.026

    Mr. Cummings. Thank you very much, Mr. Chairman.
    I would like to take a moment to remind everyone of our 
ultimate goal here today, to help victims of human trafficking, 
forced prostitution and sex slavery to escape their conditions 
and put their lives back together. These victims have survived 
horrifying abuses that few people in this room can even 
imagine. These atrocities are simply despicable, almost 
unspeakable. But we cannot shy away from them. We must address 
them directly and give these victims a voice.
    To conduct a responsible review of the process used to 
award these grants we need to understand who these victims are, 
what they have gone through and why they need reproductive 
health services.
    This is an extremely uncomfortable issue. We are talking 
about young women who have been raped, sometimes repeatedly, 
and often have contracted sexually transmitted diseases. In 
addition, many of them are coping with severe psychological 
trauma.
    If I may, I would like to ask unanimous consent to enter 
into the record these studies on this issue. First is a State 
Department 2011 report on trafficking in persons which says 
this: The United States is a source transit-and-destination 
country for men, women and children subjected to forced labor, 
debt bondage, document servitude and sex trafficking.
    Chairman Issa. Without objection, so ordered.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T3939.027
    
    Mr. Cummings. Thank you, Mr. Chairman.
    Second is a study by researchers at the London School of 
Hygiene and Tropical Medicine which finds that 90 percent of 
trafficking victims reports ``having been physically forced or 
intimidated into sex or doing something sexual.''
    Chairman Issa. Without objection, so ordered.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T3939.028
    
    Mr. Cummings. Third is a study by researchers at the 
University of Pennsylvania which reports that ``between 244,000 
and 325,000 American children and youth are at risk each year 
of becoming victims of sexual exploitation, including as 
victims of commercial sexual exploitation.''
    Chairman Issa. Without objection, so ordered.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T3939.029
    
    Mr. Cummings. Thank you, Mr. Chairman.
    To address these problems, HHS stated in its grant 
announcement that these funds are intended to provide 
comprehensive case management, services that include referrals 
of family planning services. To be clear, this is not about 
using Federal funds for abortion. This is about providing 
referrals for a full range of contraception, family planning 
and other reproductive health services. Applicants who are 
willing and able to provide these referrals got preference over 
those who were not.
    Mr. Chairman, after you announced this hearing, I sent to 
you a letter requesting additional witnesses. They are 
individuals who work for organizations that help these victims 
on a daily basis and advocate on their behalf. It would have 
taken the committee very little time to hear from them today 
and they would have provided a compelling case for why these 
services are so critical for these victims.
    Ultimately you rejected my request. In your response letter 
you said this type of testimony was not the subject of today's 
hearing. I strongly disagree. If our goal is to analyze these 
grants in a responsible manner, we cannot ignore the voices of 
these human trafficking victims, many of whom are very young 
women who have been exploited and raped by their persecutors.
    For these reasons, today I am invoking my right as the 
ranking member to request a minority day of hearings under 
House Rule 11. I am submitting for the record the required 
letter with the appropriate number of signatures.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T3939.030
    
    [GRAPHIC] [TIFF OMITTED] T3939.031
    
    Mr. Cummings. Mr. Chairman, you have scheduled no full 
committee business for the entire week of next week. We have no 
full committee hearings and no markups. Since our schedule is 
wide open and since the witnesses are willing to appear, I 
respectfully request that you schedule a hearing for then.
    I thank you.
    With that, I yield back.
    Chairman Issa. Would the gentleman yield?
    Mr. Cummings. Yes, of course.
    Chairman Issa. Although you have a right under rule 11, I 
would strongly suggest that you wait until the conclusion of 
the hearing to assert that it is the decision of the chair to 
limit the scope of this hearing. Having said that, as I have 
already announced to the witnesses, I have a strong expectation 
that during the process of a more narrow hearing that was and 
is on the question of whether or not merit-based procedures 
were used, this committee is very likely to have a rather wide-
ranging discussion along with our witnesses on some of the 
particulars of the trafficking in human beings, people being 
used as sex slaves, a great many issues that, although not the 
subject of this hearing, may very well be the subject of a 
followup hearing.
    For that reason I would hope that everyone would reserve 
judgment until we have gone through this. And if the committee 
at the conclusion of a more narrow hearing wants to explore 
this other issue, which is inseparable in many ways from what 
these gentlemen work on every day around the country, then I 
certainly would entertain scheduling an investigation and a 
hearing and other committee work related to that issue.
    If the gentleman doesn't know, I have worked on the 
question of trafficking in human beings all the way back in the 
Bush administration, and I agree with the gentleman that that 
is an area that there is never enough attention by Congress.
    So, if the gentleman will reserve that motion until the 
conclusion, I certainly will entertain the motion.
    Mr. Cummings. Mr. Chairman, I will reserve. First of all, I 
appreciate what you just said. When I read some of the 
testimony and looked at the decision--and I am glad you have 
been involved in it--I was horrified. And I just want to make 
sure, as I know you do, and part of this hearing is about this, 
making sure that HHS is doing its part to help these young 
victims address their particular needs. So the request for the 
hearing was in that vein, the ultimate goal of trying to help 
people who are in big trouble. And many of them, of course, are 
our own fellow citizens.
    With that, Mr. Chairman, I reserve until the end of the 
hearing.
    Chairman Issa. Great. The gentleman yields back.
    All Members will have 5 days to submit opening statements.
    With that, today's hearing, we will hear from two witnesses 
from the Department of Health and Human Services. First of all, 
George Sheldon is the acting assistant secretary of the 
Administration for Children and Families, and Mr. Eskinder 
Negash is the director of the Office of Refugee Settlement.
    Gentleman, pursuant to the rules of this committee, all 
witnesses who testify are to be sworn. Would you please rise to 
take the oath.
    Raise your right hands.
    [Witnesses sworn.]
    Chairman Issa. Let the record reflect affirmative answers 
by both. Please be seated.
    Now, Mr. Sheldon, I know you have testified once before, 
Mr. Negash, perhaps not. But you have all seen this on C-SPAN. 
Your prepared statements in their entirety will be placed in 
the record. Knowing that you are administration witnesses, it 
is often pushed that you stay to your script, and we understand 
that. But if you abbreviate your script or want to include any 
individual statements, as long as you remain within the 5 
minutes, we are delighted. If you finish sooner, we will get to 
questions sooner. If you run slightly over, as long as you are 
not totally reading a statement that was simply too long when 
written, we will allow you to complete it.
    With that, Mr. Sheldon, you are recognized.

   STATEMENT OF GEORGE SHELDON, ACTING ASSISTANT SECRETARY, 
 ADMINISTRATION FOR CHILDREN AND FAMILIES, U.S. DEPARTMENT OF 
   HEALTH AND HUMAN SERVICES; AND ESKINDER NEGASH, DIRECTOR, 
 OFFICE FOR REFUGEE RESETTLEMENT, ADMINISTRATION FOR CHILDREN 
   AND FAMILIES, U.S. DEPARTMENT OF HEALTH AND HUMAN SERVICES

    Mr. Sheldon. Mr. Chairman, Ranking Member Cummings, members 
of the committee, thank you for the opportunity to testify 
about international trafficking and the role of the Department 
of Health and Human Services.
    The organization I lead, the Administration for Children 
and Families, is responsible for certifying foreign persons as 
trafficking victims and assisting them with the services that 
they need to rebuild their lives. One of the ways we do this is 
through the Trafficking Victims Assistance Program.
    I came to my current position with direct experience with 
trafficking. As secretary of the Florida Department of Children 
and Families, I co-chaired with the Commissioner of Law 
Enforcement, the State's human trafficking task force. I helped 
lead the State's efforts to develop policies that protect and 
support victims and punish their traffickers. I heard directly 
from victims about abuse and degradation. As I make decisions 
about human trafficking policy, I continue to think about these 
victims and what they need to regain control of their lives.
    Foreign national trafficking victims are drawn from 
countries throughout the world often through the use of force, 
coercion, and fraud. They are generally poor, young, and 
extraordinarily vulnerable. Many victims, as indicated, have 
been raped and beaten into terrified submission. Victims face 
numerous health risks, including physical injuries such as 
broken bones, burns, sexually transmitted diseases and other 
diseases.
    Victims often find themselves physically and 
psychologically afraid to reach out to law enforcement 
officers. Traffickers often control victims by limiting their 
access to basic information that all of us take for granted, 
such as the name of the city where they live or whether law 
enforcement officers will arrest them.
    Victims need access to all available information to help 
decide what is the best path for them. Since 2001, we have 
certified more than 3,000 victims of trafficking. Forty-one 
percent of the minors were victims of sex trafficking or a 
combination of sex and labor trafficking. The purpose of the 
Victim Assistance Program is to provide short-term 
comprehensive management services. It also may include 
emergency assistance on a limited basis, such as food and 
clothing and shelter.
    Our experience in operating this program for 10 years drove 
home to us the particular health risks posed by victims of 
human trafficking. As a result, we specified in the funding 
announcement that we would give a strong preference to 
applicants that are willing to offer all the services and 
referrals delineated in the program objectives, including 
offering victims referral to medical providers that can provide 
or refer to a full range of services they need. But ultimately 
it is up to the victim to choose the services.
    The HHS grantee does not directly provide services, but 
enters into subgrant contracts with local organizations. But I 
want to point out that organizations that do not provide 
information referral for family planning services can still 
receive Federal money. They can choose to subcontract with 
subgrantees to provide services that they cannot or do not wish 
to perform.
    In 2011 we received applications from several organizations 
that had the strong capacity to provide comprehensive case 
management. In making the decision, we needed to ask a basic 
questions: Which organizations were best able to serve all the 
needs of the victims? We selected grantees that are able to 
provide a full set of health-related referrals.
    The three organizations selected will enable trafficking 
victims to retake control of their lives by making informed 
health care decisions based on their own circumstances, their 
own values, and their own faith. The three entities that were 
awarded the grants have still entered into subgrant 
arrangements with many faith-based organizations, including 
entities affiliated with the Catholic Church. We value our 
partnership with numerous faith-based organizations, including 
the Conference of Bishops.
    Over the last 3 years, we have awarded some $650 million to 
Catholic-affiliated organizations. For instance, we partner 
with Catholic Charities of Los Angeles to provide shelter to 
runaway and homeless youth; with Catholic Charities of Hartford 
to help fathers become better parents and provide for their 
children; with the Catholic Missions Board to provide care and 
treatment for HIV patients in South Africa, South Sudan, and 
Haiti.
    Recently, I visited a home in Chicago. I had conversations 
with eight young women ranging in age from 12 to 21. They 
recounted their stories, horrific, about being enslaved for 1 
to 3 years. Their stories were horrific, but what was even more 
unsettling was the aftermath: the young women, broken down 
physically, morally, spiritually, wondering who they could 
trust and how they would survive.
    But these women opened up. They explained how a safe place 
and advice from people they trust had altered the trajectory of 
their lives. And I was heartened. They are struggling to 
restore their hope and their dignity, and I believe that we 
need to provide them the the full array of services so that 
they have a fighting chance.
    In conclusion, Mr. Chairman, I am confident that the three 
grantees will help to ensure that the victims of human 
trafficking will receive high-quality case management services. 
We are fully respectful of this committee's jurisdiction, its 
responsibility, and we have provided to date approximately 
3,500 pages of documents. We are still in the process of 
working with staff. We will continue to do that. As one who is 
from Florida, which has a totally transparent open records law, 
I believe that is important for your oversight, but I also 
believe it is important to get the total picture of how this 
grant was awarded.
    Thank you.
    Chairman Issa. Thank you.
    [The prepared statement of Mr. Sheldon follows:]

    [GRAPHIC] [TIFF OMITTED] T3939.032
    
    [GRAPHIC] [TIFF OMITTED] T3939.033
    
    [GRAPHIC] [TIFF OMITTED] T3939.034
    
    [GRAPHIC] [TIFF OMITTED] T3939.035
    
    [GRAPHIC] [TIFF OMITTED] T3939.036
    
    [GRAPHIC] [TIFF OMITTED] T3939.037
    
    [GRAPHIC] [TIFF OMITTED] T3939.038
    
    [GRAPHIC] [TIFF OMITTED] T3939.039
    
    Chairman Issa. I understand, Mr. Negash, you do not have 
any opening statement, prepared or unprepared.
    Mr. Negash. Mr. Chairman, I don't have any additional 
statement.
    Chairman Issa. Would you like to make any statement?
    Mr. Negash. No, sir.
    Chairman Issa. With that, we will go to the first round of 
questioning and I will recognize myself for 5 minutes.
    Mr. Sheldon, as I said earlier, I want to focus this 
committee on the question of predictability of grants based on 
merit. So let me start with a question. There were three awards 
out of four applicants. The number one award went to somebody 
with a 90, the Catholic Charities had an 89, and then you get 
down into the seventies, substantially lower for the other two 
awardees.
    If you were an applicant or potential applicant, knowing 
that grant making takes time and money, applications, and you 
were told that there were factors but that those factors would 
not eliminate you, and then you saw that you were dramatically 
higher than two of the applicants who received it, wouldn't you 
legitimately question how you make that cost-benefit question 
ever again?
    Again, it is not a question of what the issue was that may 
have decided this, but it was not a requirement. In your 
opening statement, Mr. Sheldon, you said that you believe that 
full range of services. If you believe it, why is it that HHS 
didn't say you either provide them or you are ineligible--which 
wasn't said--but, rather, go ahead and make the applications, 
it is not going to eliminate you, it is a factor.
    Well, it is a factor apparently that goes from 89 to 74. I 
mean, it is a huge factor, and it was never scored and no one 
could understand how much better they would have to be, how 
much dramatically better they would have to be to prevent being 
eliminated.
    Could you answer that narrow question?
    Mr. Sheldon. I appreciate the question, Mr. Chairman. Let 
me articulate that it was very clear in the funding 
announcement that HHS had a preference for those who would 
provide the full array of services. And the way the process, 
the way the grant process works----
    Chairman Issa. Mr. Sheldon, I have very limited time. The 
narrow question is, 74 to 89 is a chasm. If you can't explain 
the chasm, then what I see here is they were dead on arrival in 
their application, period. The bottom line is everybody who 
applied got it except the incumbent, and they were at the top 
of the rating and dramatically higher than the two much less 
qualified. And that qualification number is an array of service 
administration and priorities and capabilities.
    So the narrow question is, if you are out there applying 
for grants because you want to help people--and the ranking 
member said it very well. This is about helping people. This is 
purely about compassionate people wanting to help people and 
administering over sending them for the various services. No 
services would be provided by these recipients. These were 
referrals.
    How do I explain that in narrow terms, you know 20 points? 
How do I explain it?
    Mr. Sheldon. If you will give me a minute, we provided a 
funding announcement. That is reviewed by----
    Chairman Issa. No, I am sorry, you are not answering the 
question, and I only have a minute and 45. You did not tell 
them that they could be just a lot better and still not get the 
award. That has a chilling effect. Everyone on this dais on 
both sides understands numbers.
    Now, back to the question, and I apologize for the 
language. But this is such a great difference in the numbers, 
not between 89 and 90, the top two. If it had only gone to the 
top one, I would say, well, it was a photo finish and this 
preference made a difference. But the two that were 
unqualified, less qualified by your own scoring system by 
career professional civil servants, as we go on today you are 
going to be asked again and again, so not on my time, but on 
additional time, please be prepared to answer why those numbers 
so dramatically allowed for this. I have seen this in 
decisionmaking on refuelers, I have seen it on decisionmaking 
on green energy. I want to have it explained today.
    Having said that, I want to go on to the core question here 
for a moment. Isn't it true that Catholic Charities refers, and 
all of the administrators, refer people to physicians, and that 
those physicians are completely free to provide the full range 
of benefits, to advise people on the full range of benefits. In 
other words, the referral to the compassionate person providing 
a service, including medical and psychological, those people 
are not nuns or Catholic priests. They are not definable by any 
of this criteria that you used for the parent administrator. 
And even in your opening statement you made it clear that the 
recipients, the actual doer of the good, might in fact still be 
some of these same faith-based organizations.
    So the question is, the referral to people to make these 
decisions, including STDs which you mentioned, obviously the 
need for treatment and the possible additional procedures, 
including abortion, including referral for contraceptives and 
so on, was there any prohibition on those doctors and those 
professionals?
    Mr. Sheldon. To your first comment, to your first question, 
the reviewers identified strengths and weaknesses in all the 
applicants and they also indicated in their reviewers' notes 
that there was not sufficient detail with all of the applicants 
in order to evaluate several components. Those were components 
in terms of monitoring their subgrantees, training, the full 
array of services. Those were weaknesses that were identified 
in every single one of them, including the Bishops.
    Chairman Issa. I guess that is the reason why nobody got a 
110 rating.
    Mr. Sheldon. And the scoring was based on those reviewers' 
comments. Based on the information we had from reviewers which 
indicated that there was not sufficient detail on several of 
the issues, we went back. And that was my decision: Let's go 
back to all of the applicants to provide the answers to the 
questions that the reviewers identified. In looking at that, in 
looking at the scoring, it was my opinion that all of the 
applicants were qualified to administer the grant, which 
brought us to the decision of whether to apply the preference 
or not.
    I made a determination that was the appropriate thing to 
do, because even the reviewers' comments indicated two or three 
reviewers indicated that the unwillingness of the Bishops to 
agree to provide the full array of services raised questions as 
to whether they could meet the six objectives of the funding 
announcement.
    Chairman Issa. As I recognize the ranking member, I think I 
heard that a 90, an 89, a 74 and a 69 rating under this 
nonpartisan decisionmaking process were made to be equal.
    Mr. Sheldon. Those scorings were made prior to the answers 
being submitted which the reviewers had indicated needed to be 
answered.
    Chairman Issa. With that, I recognize the ranking member. 
Without objection, I would ask that the ranking member have 7 
minutes. I apologize. Our time ran over.
    Mr. Cummings. Thank you, Mr. Chairman.
    Mr. Sheldon, let me ask you some basic questions. In the 
announcement for these grants HHS stated explicitly that the 
central purpose of this funding is to provide, ``comprehensive 
case management services'' to victims of human trafficking. Is 
that correct?
    Mr. Sheldon. Yes.
    Mr. Cummings. In the same announcement, HHS also stated 
that these services include ``family planning services and a 
full range of legally permissible gynecological and obstetric 
care.'' Is that correct?
    Mr. Sheldon. That is correct.
    Mr. Cummings. The three organizations that received grants 
from HHS were all able to make these referrals or have their 
subgrantees make them; is that correct?
    Mr. Sheldon. That is accurate.
    Mr. Cummings. But the Bishops, and this is important, but 
the Bishops stated explicitly in their application that if they 
received this grant, they would not, ``provide or refer for 
abortion, sterilization, or artificial contraceptives,'' is 
that correct?
    Mr. Sheldon. That is accurate.
    Mr. Cummings. It seems pretty simple. The Bishops would not 
provide the referral described in the grant announcement and 
they didn't get the grant. In other words, you were contracting 
for something and they said they couldn't do it. Is that right?
    Mr. Sheldon. That is accurate.
    Mr. Cummings. Now, in their application, the Bishops 
offered to consider ``alternative ways to perform these 
referrals under the grant.'' Is that right?
    Mr. Sheldon. That is accurate. And I went a step further--
--
    Mr. Cummings. So you followed up on that.
    Mr. Sheldon [continuing]. And followed up on that, and 
asked them to explain in detail what that alternative would be, 
because we were interested in that.
    Mr. Cummings. Okay. So you were trying to do everything you 
could to make sure that you were being fair to them; is that 
right?
    Mr. Sheldon. That is accurate.
    Mr. Cummings. And did they ever provide you with that 
alternative information?
    Mr. Sheldon. The information that they came back with as an 
alternative was a restatement of their original position.
    Mr. Cummings. So in other words, they didn't bring anything 
new to you?
    Mr. Sheldon. That is correct.
    Mr. Cummings. Did you then follow up on that and say well, 
wait a minute now. I thought you said you were going to bring 
me something new, and it looks like we are rehashing the same 
thing.
    Mr. Sheldon. We did the one follow-up.
    Mr. Cummings. And that was it. In fact, you documented all 
of this in your decision memo which has been made available to 
every member of the committee. The memo explains that HHS asked 
the Bishops if they had any specific proposals for alternative 
ways to provide these referral services, but the Bishops ``did 
not offer any proposals.'' Is that correct?
    Mr. Sheldon. That is accurate.
    Mr. Cummings. Now, as I said in my opening, I think we 
would all benefit from hearing a more detailed explanation of 
why victims of human trafficking and sexual exploitation often 
need exactly these kinds of referral services. Mr. Sheldon, can 
you explain generally these victims' age, background and 
experience?
    Mr. Sheldon. Approximately 70 percent of these victims are 
women. Approximately 80 percent of the females who are victims 
are victims of sex trafficking. These are individuals who have 
experienced the most horrific conditions, and their freedom, 
for all practical purposes, has been taken away from them. What 
we are desirous of doing is restoring the freedom that has been 
stolen from them. It frankly is not much more complicated than 
that.
    Mr. Cummings. And can you explain why it is so important 
for these victims to have access to referrals for the full 
range of family planning services? Obviously they didn't get 
the grant, and according to what you are saying, it is because 
there were certain services that they said they couldn't do. Am 
I right?
    Mr. Sheldon. That is accurate.
    Mr. Cummings. Now, this goes to the basic points in this 
hearing. What was it that they needed that you were trying to 
get for them that the Bishops were not able to provide? You put 
out a contract and basically you are saying this is what we 
need. They said, we cannot do certain services, so they didn't 
get it. But the question becomes: Why did they need what you 
were contracting for, do you follow me, and why was that so 
significant?
    Mr. Sheldon. Well, even the reviewers pointed out that the 
unwillingness of that applicant to provide the full array of 
options raised questions as to whether they could provide a 
response to the six objectives outlined in the contract.
    But let me point out, I think that the chairman, frankly, 
has put his finger on it. The restriction was not that they 
were unwilling to refer to a physician, but restricting what 
that physician could do. And that is a concern that I have. 
Ultimately if you are referring for case management, if you are 
referring out to a medical provider, a decision ought to be 
between that medical provider and the victim.
    Mr. Cummings. In reviewing some of the various data, there 
was a 17-year-old victim from Chicago, and the name is Angela. 
Angela believed that the older boy who offered her a ride to 
school really liked her. Angela never thought he would sell her 
on Craigslist, force her to have sex 10 times a night in hotel 
rooms in six cities across the United States, and beat her with 
belts and chains when she didn't earn him enough money.
    Mr. Sheldon, how frequent is it that captives will move 
from city to city like this?
    Mr. Sheldon. I have heard that story time and time again.
    Mr. Cummings. So you hear that a lot?
    Mr. Sheldon. I do. And you will hear that same response 
from law enforcement.
    Mr. Cummings. Now, Angela reportedly escaped her trafficker 
and was helped by a group that found her immediate shelter, 
provided her food, and assisted her in finding long-term 
medical and legal support.
    Next is a story of a young lady who was trafficked by a man 
who pretended to be her boyfriend. He held her inside hotels 
for a period of 8 months, where she was forced to have sex with 
10 to 15 men a night, and had to give every penny she earned to 
the trafficker.
    Through a police raid, Clara and another young female 
victim were rescued. Clara was extremely distraught to discover 
that she was pregnant, because she knew that the baby would 
belong to any of the hundreds of men who raped her or even 
perhaps to the trafficker himself.
    How often do you hear stories like that?
    Mr. Sheldon. I have heard stories in Florida when I was 
chairing the task force there from victims themselves. I 
currently serve on the special operating group at the Federal 
level where I have heard those stories from Federal law 
enforcement agencies as well.
    Mr. Cummings. Thank you very much. I see my time is up.
    Thank you, Mr. Chairman.
    Chairman Issa. Thank you. We now go to the gentleman from 
Utah, Mr. Chaffetz, for 5 minutes.
    Mr. Chaffetz. Thank you, Mr. Chairman. Thank you for 
holding this hearing.
    Our colleague, the gentleman from New Jersey, Mr. Smith, 
has done exceptional work on this, has spent a lot of time and 
effort, and I appreciate that. I would like to yield my time to 
him.
    Mr. Smith of New Jersey. I thank my good friend for 
yielding and I want to thank Chairman Issa for including me on 
this panel and for calling for this extraordinarily important 
hearing.
    Mr. Chairman, a little over a decade ago, I authored the 
Trafficking Victims Protection Act of 2000, the landmark law 
that created America's comprehensive policy to combat modern-
day slavery. Among its many mutually enforcing provisions 
designed to prevent trafficking, protect victims and prosecute 
those who reduce people to commodities for sale, the three P's, 
my legislation established the Health and Human Services Grants 
Program under review today.
    For over a decade, we have achieved an amazing left-right, 
religious-secular, bicameral, bipartisan consensus unified in 
combating sex and labor trafficking at home and worldwide 
without promoting abortion--until today.
    In what can only be described as an unconscionable abuse of 
power, the Obama administration has engaged in what amounts to 
bid-rigging, denying taxpayer funds to a demonstrably superior 
organization, the U.S. Conference of Catholic Bishops, with an 
exemplary 10-year track record of performance, that scored 
significantly higher in independent HHS reviews than two of the 
three NGO's that got the grant.
    The Obamaadministration's discriminatory practice of 
funding NGO's that provide or refer for abortions, even when 
they fail to win a competitive process, is not only unjust, 
unethical and in violation of conscience laws, but will 
severely undermine public and congressional confidence and 
support for what is otherwise a laudable program.
    If you are a Catholic or other faith-based NGO or a secular 
organization of conscience, there is now clear proof that your 
grant application will not be considered--and Darrell Issa, the 
chairman, got to this in his question--under a fair, impartial 
and totally transparent process by the Obama administration.
    The Obama administration's bias against Catholics is an 
affront to religious freedom and a threat to all people. Let's 
not forget that the independent HHS reviewers found that the 
USCCB, the Catholic Bishops' proposal and their group to be one 
of the most experienced experts on human trafficking, a 
comprehensive system in place that has assisted thousands of 
victims, demonstrated strong partnerships by engaging with both 
faith-based and non-faith-based organizations. And yet the 
Catholic organization was discriminated against solely because 
it fundamentally respects the innate value and dignity and 
preciousness of an unborn child and refuses to be complicit in 
procuring his or her violent death by abortion.
    Even though HHS reviewers gave the USCCB a score of 89, 
compared to 74 for Tapestry and 69 for the U.S. Committee on 
Refugees and Immigrants, USCRI, the latter two got the 
contracts. Although HHS has thus far prevailed in all of the 
relevant documents, we do know that the USCRI's proposal lacked 
detail on key program areas.
    Here is what the reviewers said: The overall level of 
detail in the proposal is insufficient to ensure that the 
project will be established and run in an effective level and 
that the management plan is credible and comprehensive. There 
is a complete lack of information on specific activities and a 
timeline is vague, inhibiting evaluation of their 
reasonableness.
    That is not me talking. That is the reviewers. They had 
real serious problems about the competency of that proposal.
    Why go through, and, again, Chairman Issa referred to this, 
the charade of determining whether or not a grant application 
is meritorious, when preferential treatment is afforded only to 
those in sync with President Obama's abortion-promoting agenda?
    The bottom line is this: Pro-abortion favoritism embedded 
in this egregiously flawed process does a grave disservice to 
the victims of trafficking. Victims deserve better. The women 
and children who have been exploited by modern-day slavery need 
our help, and that is why I wrote the law in the first place.
    I have a number of questions when we get to the second 
round, Mr. Chairman, but I would like to ask--and maybe Mr. 
Sheldon will get to this--did Secretary Sebelius or any other 
high official at HHS convey in any way, including by memo, 
email, letter, messenger or the spoken word, that the USCCB 
should not get the grant; and, if so, how was that conveyed? 
Exactly why was the USCCB not funded, given that they scored so 
much higher by the HHS reviewers?
    And then on the performance of the grant, I am out of time 
and maybe you will get to this, I will ask on the second round, 
how are the others doing? Has there been a gap in service? We 
are concerned about these victims. I deal with the victims all 
the time.
    Chairman Issa. The gentleman from Utah's time has expired. 
If you would like to answer as to how the awardees are doing, 
you certainly are within your right.
    Mr. Sheldon. I appreciate that. The awardees, the grantees 
in this case, are ahead of where the Bishops were 5 years ago 
in terms of bringing on subgrantees. Frankly, I want to 
compliment the Conference of Catholic Bishops, because they 
have been extremely cooperative in this transition. I have met 
with them and with their director of social services who 
indicated that their chief responsibility were these victims, 
and that is ours.
    If I might, Mr. Chairman, I would like to speak to 
strengths and weaknesses. The weaknesses that you identified 
are an accurate reflection of what reviewers commented. But the 
reviewers made comments on strengths and weaknesses in all of 
the applicants.
    For instance, in USCRI they said they had considerable 
experience managing large refugee and trafficking projects. In 
the USCCB they indicated weaknesses because the proposal lacked 
detail on shelter models, residential facilities, community-
based services, community outreach programs.
    So the point I am making is that if you have to take the 
reviewers' comments in the totality of what they said, and also 
in the comments on all of the applicants, including the U.S. 
Conference of Catholic Bishops, that the applications lacked 
sufficient detail, that is the very reason we went back and 
asked----
    Mr. Smith of New Jersey. With respect to----
    Chairman Issa. No, the gentleman's time has expired.
    The gentleman from Maryland, Mr. Cummings, is recognized 
for 5 minutes.
    Oh, I am sorry, I forgot you. I would give you a second 
one, but I would have to take it from the former chairman of 
the full committee, Mr. Towns.
    Mr. Towns. Thank you very much, Mr. Chairman. At least we 
cannot say at the moment that you are not fair.
    Chairman Issa. Hopefully you will never have to say that I 
am not fair.
    Mr. Towns. First of all, I chair the Social Work Caucus, so 
I am very interested in this. And I agree with those who 
believe that in order to analyze these grants in a responsible 
manner, we should not ignore the voice of trafficking 
survivors. That is why I hope we will have another hearing and 
bring in victims.
    So I would like to use my time mostly to read an account 
from one survivor. We received this account from an advocate 
working for the Coalition to Abolish Slavery and Trafficking. 
She has asked us to keep her name confidential, and that I will 
do. This is what she said:
    ``At the age of 13, I was kidnapped by a pimp, drugged and 
held in a room for 5 days while a seemingly never-ending stream 
of men entered the room, raped me and left the room again. None 
of them wore a condom. None of them were carrying papers from a 
clinic proving they were disease free.
    ``I had no idea what was happening to me. I had just turned 
13 and was from a small town in Illinois. I am not even sure I 
quite knew what a pimp was. I just knew that there was a big 
guy who seemed to be in charge of everything, and when I tried 
to leave the man, the pimp became violent and forced me back 
into the bedroom, and then the parade of men would start all 
over again.
    ``But I was lucky, far luckier than most girls who come 
under control of a trafficker. Against the odds, I escaped 
within a week. But the impact on my body and mind lasted much 
longer. I received no reproductive or gynecological medical 
care after experiencing those many days and nights of serial 
rape by unknown men. As a result, I became gravely ill.
    ``At 15, I took myself to an emergency room. I just could 
no longer stand the pain. I was admitted, tested, and told that 
my kidneys were shutting down, and with a lot of rest and IV 
antibiotics, I got better for a while.''
    My question is simply this, Mr. Sheldon: How important is 
it when we are reviewing these grants to hear the voices of the 
victims? How important is it?
    Mr. Sheldon. I think it is critically important if we are 
going to responsibly deal with this issue.
    Mr. Towns. Do you really put a lot of time and weight on 
this?
    Mr. Sheldon. You cannot go to a home, as I went to in 
Chicago for those eight young girls, and hear the stories of 
what they have gone through and not have an extreme amount of 
passion and compassion. And it will be--you know, in talking--
it will be a huge battle for them to overcome the 
psychological, the physical, and the emotional trauma that they 
have experienced. And that is the reason that we have tried to 
seek out grantees that will allow these individuals to regain 
their decisionmaking power.
    Mr. Towns. Mr. Chairman, I really look forward to another 
hearing where we can bring in the victims and to hear from 
them, because I think we need to really get to the bottom of 
it.
    I noticed in terms of Mr. Smith has done some work, but Mr. 
Smith, let us not get into the blame game. This is too serious 
to blame. We need to work together to make certain that we put 
an end to these young people being destroyed.
    So I want to thank you so much, Mr. Chairman, and I yield 
back.
    Chairman Issa. Would the gentleman yield?
    Mr. Towns. I would be delighted to yield to the chairman.
    Chairman Issa. I will assure you that our committee staff 
are working right now on what might be a hearing that is much 
more focused on the issues that I have worked on in the past 
under Judiciary, that Mr. Smith has worked on, that you are 
expressing here today, the trafficking in human beings and 
whether or not on a broad basis, because as you know as former 
chairman, our committee has--generally we work on the bigger 
issues, not the issues that belong to one committee. So whether 
it is through the State Department, Health and Human Services, 
even military personnel, the question is are we doing enough 
and are we dealing with it in a comprehensive way as one that I 
believe is within the committee's clear jurisdiction because it 
falls between the cracks of many different programs, not just 
the one we are looking at here today.
    So that is being worked out right now between the committee 
staff, and it is something that I know Mr. Smith will be back 
again, I have no doubt, that when it comes to this issue he is 
very passionate, and I believe it will meet your satisfaction.
    I yield back.
    Mr. Towns. Thank you very much, Mr. Chairman. That is very, 
very encouraging.
    Mr. Smith of New Jersey. Will the gentleman yield?
    Mr. Towns. I would be delighted to yield.
    Mr. Smith of New Jersey. I thank my good friend for 
yielding.
    I just want the record to show that since the late nineties 
I have chaired well over two dozen hearings on trafficking 
issues, not just on the legislation. But we heard from witness 
after witness, domestic and international, and it does make one 
really sharpen the focus on ensuring that we do all things 
possible to help those victims.
    Chairman Issa. I thank all the gentlemen. The gentleman's 
time has expired.
    We now go to the gentleman from Michigan, Mr. Walberg, for 
5 minutes.
    Mr. Walberg. Thank you Mr. Chairman, and I thank the panel 
for being here. I thank you for the work that you have been 
given to do and you attempt to do. It is a worthy work.
    I grew up on the south side of Chicago. I pastored churches 
and in fact dealt with women victims in situations like this 
myself. My daughter deals with victims in similar situations in 
Kampala, Uganda, in a Third World country, with victims all 
around.
    I find it very discouraging, frustrating, and saddening to 
sit here in a First World country, a Nation that vested itself 
with the responsibility of leading the world in freedom and 
democracy and safety and security and rights for all men, 
women, children, a Nation built on Judeo-Christian values. 
Whether we like it or not, that was what we were built on, and 
this country succeeded in such great ways as a result of those 
values, values that indeed saw victimization as wrong, 
absolutely wrong and unacceptable--but a Nation, up until just 
recent years, saw the full aspect of victimization to include 
every part of that process, including the most innocent victim, 
the victim that had no choice, a victim that has become a 
product of victimization, and that is the unborn child as well.
    You have an amazing responsibility, but a responsibility I 
think that at present is neglecting to consider the further 
victimization that goes on. And there will be arguments about 
that, but there are huge tomes of evidence showing that further 
victimization of a woman, in this case in human trafficking, to 
have a child victimized as well, adds to that victimization in 
the future.
    So when I hear that apparently one supplier of assistance 
to these victims of human trafficking is left out, is cut out 
of the mix and opportunity to provide ministry to the soul, the 
body, to every component part of that victim, the woman, the 
young girl who is put in this heinous situation, and yet we 
forget about further victimization of her and the victimization 
of a little unborn, that is a concern to me as well.
    There are five pieces of information that must be 
documented as I understand it in approving funding: one, 
position of the grant application ranking; two, reasons for any 
changes in the order of ranking; three, if there is no rank, 
then a statement for why funds were given; four, documentation 
as to the reason in the change of rank; and, five, any 
conditions associated with the grant.
    I just wanted to follow up on the second of five mandatory 
documentations that you are required to give. If the 
application's position in the list of applications approved for 
funding is different from its position in the ranking list, a 
statement of the reasons for the difference that influenced 
this judgment of the approving official must be included. This 
should include justification for funding of a particular 
application.
    First of all, was the Catholic Council of Bishops' position 
on the list of ranking approved for funding different than its 
position in the ranking?
    Mr. Sheldon. First of all, let me thank you for the 
passion.
    Mr. Walberg. There is passion there, but let me get your 
answer there, because I am running out of time.
    Mr. Sheldon. And it is one we share. I believe yes, we 
clearly met the requirements of number two that you have 
identified as the reasons why we exercised the preference.
    Mr. Walberg. Let me go further then and go back to the 
question by Congressman Smith. Was this statement of reason 
reviewed by anyone outside of ACF? For instance, did anyone on 
the sixth floor of HHS review this decision, and more 
specifically, did Secretary Sebelius, a strong opponent of life 
and a supporter of abortion on demand, did she review this?
    Mr. Sheldon. This was a collaborative effort. I consulted 
with other policymakers within the agency, our Office of 
General Counsel. I did not consult with Secretary Sebelius. I 
did meet with her and inform her of the decision that I had 
made.
    Mr. Walberg. Was Sharon Pratt, the counselor of Human 
Services, is she the one you referred to?
    Mr. Sheldon. Yes. She was involved, as part of many people 
involved, in looking at this policy decision.
    Mr. Walberg. My time has expired. I thank the chairman.
    Chairman Issa. I thank the gentleman.
    We now recognize the gentleman from Massachusetts for 5 
minutes.
    Mr. Tierney. Thank you.
    I mean, clearly, this seems to be a discussion about 
whether or not our policy is going to allow the doctor and the 
victim to make a determination of what services are best needed 
for medical care as opposed to having the government limit 
those choices on that.
    And there was an editorial in the Los Angeles Times, ``When 
Faith is a Barrier to Care,'' and I just want to read a couple 
of excerpts from that.
    ``The Roman Catholic Church and its affiliated nonprofit 
organizations have every right to hold true to their religious 
convictions while doing good works. But when a nonprofit, 
religious or not, is carrying out the government's work with 
government money, it must do so on the government's terms.
    ``It should go without saying that the victims of sex 
crimes must be offered all possible services related to 
reproductive health. And there is nothing discriminatory about 
requiring all applicants to meet the agency's specifications. 
It is the government's job to determine which services will or 
will not be offered under public programs.
    ``Clients of government-sponsored services should not 
receive significantly different levels of service depending on 
which organization they happen to be assigned to. Faith-based 
groups that want a share of government grants and contracts 
must be willing to do all the work the government outlines, not 
just that that conforms to their religious doctrines.''
    I think that is a pretty fair statement.
    Mr. Chairman, in your opening statement, I was concerned 
when you suggested that Health and Human Services has some sort 
of a litmus test and you said that Catholics need not apply. I 
was brought up as a Catholic, and I would be seriously offended 
if I thought that what you said was true. I think----
    Chairman Issa. Would the gentleman yield?
    Mr. Tierney [continuing]. We should all be concerned. In my 
opinion, that is a very unfortunate statement for you to have 
made, a very unhelpful characterization. And I don't think it 
is supported at all by the evidence in this situation. And I 
want to talk to Mr. Sheldon about that.
    Some characterization was made that the decision not to 
award the bishops this particular grant is somehow 
discriminating against the entire Catholic Church. In fact, the 
title of today's hearing frames Health and Human Services as 
being in conflict with the Catholic Church. So I want to give 
you an opportunity to address that directly.
    Earlier this year, press accounts reported that Health and 
Human Services awarded the bishops a $19 million grant to help 
foreign refugees in America. Now, I think that roughly would be 
seven times the amount that they requested in the grant we are 
talking about today. Is that correct?
    Mr. Sheldon. That is correct. As a matter of fact, that 
award was made 4 days after the decision was made on this 
particular grant.
    Mr. Tierney. Thank you.
    And in fiscal year 2011, the bishops received a total of 
$32 million in grants from Health and Human Services alone. Is 
that correct?
    Mr. Sheldon. That is accurate.
    Mr. Tierney. And in your testimony today, you said, over 
the last 3 years, Health and Human Services has provided more 
than $650 million to Catholic organizations. Is that correct?
    Mr. Sheldon. That is correct.
    Mr. Tierney. A lot of people would probably like to be 
discriminated against like that.
    That includes numerous grants to the bishops, to various 
Catholic charities, and to other Catholic organizations across 
the country. Is that right?
    Mr. Sheldon. Yes.
    Mr. Tierney. So, Mr. Sheldon, has Health and Human Services 
awarded Catholic organizations more or less money in the last 3 
years than in the previous 3-year period under the Bush 
administration?
    Mr. Sheldon. I can't speak with absolute certainty, but I 
believe we have actually expended more.
    Mr. Tierney. And do you view the U.S. Conference of 
Catholic Bishops as a continuing partner in the fight against 
trafficking?
    Mr. Sheldon. There is no question about it.
    Mr. Tierney. So, Mr. Chairman, I think, you know, based on 
this information, that the grant funding to Catholic 
organizations and entities has greatly increased under the 
current administration. That would contradict the whole 
underlying premise of this hearing, that somehow this 
administration is politically predisposed against working with 
Catholic organizations.
    And I think it brings us back full cycle to this is really 
an issue about whether or not victims will get a full range of 
health-care services or we will try to somehow limit that. And 
so I----
    Chairman Issa. Would the gentleman yield?
    Mr. Tierney [continuing]. Don't think your contention has 
been accurate here. And I think the administration is doing 
more with Catholic groups, not less.
    Chairman Issa. Would the gentleman yield?
    Mr. Tierney. Certainly.
    Chairman Issa. Hopefully to make the record complete, the 
question was more narrow than you may have--or nuanced than you 
thought, and this hearing's question is more nuanced.
    What we are looking at is the question of, should--if this 
was an edict, if this was a requirement, that the full range of 
reproductive services was a mandate in order to be awarded this 
contract, we wouldn't be having this hearing, because it would 
have been clear within the spec that, as you said, what should 
be, in your view, a requirement was not a requirement. And that 
is the reason we are having the question----
    Mr. Tierney. Reclaiming my time, Mr. Chairman, that is 
certainly the ostensible purpose of this hearing but not what I 
perceive to be the actual purpose of this hearing. Because I 
think the evidence is more than clear that this was done in a 
process that was open, where applicants were made perfectly 
aware that this preference existed, and where the process was 
done in the right manner. But I think the underlying argument, 
again, is whether or not a victim is going to have their 
health-care services limited or not.
    I yield back.
    Chairman Issa. I thank the gentleman for his comments, 
although the prerogative of the chair is not to state one 
reason and have another. This hearing is narrow, and it is 
based on exactly what I said it was. And I hope the gentleman 
did not mean to imply that the chair is being either 
disingenuous or outright lying as to the purpose of this 
committee hearing.
    And we now go to the gentleman from Oklahoma, Mr. Lankford, 
for 5 minutes.
    Mr. Lankford. Thank you.
    Thank you, Mr. Sheldon, as well, for being here.
    Mr. Negash, thank you for being here.
    Have the U.S. Conference of Catholic Bishops received a low 
ranking from the previous years of service?
    Mr. Sheldon. They provided a strong performance under the 
requirements of the contract that they had.
    Mr. Lankford. Okay. So they had not received, you know, bad 
marks, bad rankings, complaints from victims coming in saying 
that we didn't get the proper care?
    Mr. Sheldon. No.
    Mr. Lankford. I noticed as I went through the documents 
here from some of the reviewers that there were frequent 
comments about how they covered all six areas and how they were 
able to provide a national focus on that.
    Had abortion been a criteria before, in the provision of 
abortion or the recommendation of abortion? Was that a 
previous--in the 2006 release of all the grants, was there a 
statement there to say you need to provide abortion and 
contraceptives?
    Mr. Sheldon. The issue of providing referral to the full 
range of gynecological services was not included.
    Mr. Lankford. No, it is not just full range of 
gynecological services, because Medicaid has 200 different 
areas. So is there something in that 200 areas for Medicaid or 
the full range of gynecological services that you would look at 
and say, this, this, and this? Are there 50 of those that they 
don't provide? Are there 10 of those? Or is this just abortion?
    Mr. Sheldon. Well, I think the question was what was in the 
previous contract.
    Mr. Lankford. Correct.
    Mr. Sheldon. And the previous contract did not refer to the 
issue of gynecological----
    Mr. Lankford. Right. But I hear you using that term, the 
``full range of care,'' but it is really not full range of 
care, because there is a provision for full range of care with 
the exception of abortion. And even with the abortion 
provision, you know, there are issues even within that. Is that 
correct?
    Mr. Sheldon. The Catholic Bishops also indicated an 
unwillingness to provide family planning services. And since 
you were quoting reviewers' comments, the reviewers indicated 
that USCCB states it does not intend to provide any family 
planning services, which is important to sex trafficking. As 
such, USCCB may not be able to sufficiently accomplish all six 
objectives of the program.
    Mr. Lankford. Right. And then they ended the document with 
this statement: ``I recommend approving the grantee for $2.5 
million.'' To lower grantees, their grantees end with this 
statement: ``Application not recommended for funding.''
    Mr. Sheldon. The document that you are referring to I have 
never seen. I have heard about it in the last couple days----
    Mr. Lankford. Okay. Well, we had obviously requested these 
documents. We had not seen it either until just last night. 
Going through these documents, I know you mentioned there are 
strengths and weaknesses listed on all of them, but the others 
don't end with the statement, ``Application not recommended for 
funding.''
    It is especially interesting to me in this process, because 
I look through there, there is a preference, obviously, for the 
different regions, nationwide. Catholic Conference, they are 
nationwide. The only other nationwide was the USCRI, who 
received a score of 69. They were funded.
    Now, I have to tell you, that is a gutsy score, considering 
sitting next to you is the director of ORR that is involved in 
this, who previously was the COO of USCRI. So they knew this 
was going to go up to his desk, who, obviously--you are going 
to recuse yourself from the decision process. But someone 
involved in the process--I mean, that is just a gutsy thing to 
do, is to say, ``I recommend this group over this group'' when 
they know their boss used to work for the other group and 
obviously has a priority for that. So somebody that has 20 
points lower in a grant scoring gets the award than someone who 
had it 20 points higher.
    There are just a million issues in the middle of all this. 
To say--if the clear issue is, if you can provide great care in 
every area for human trafficking except abortion, we don't 
accept you. If you care in all six areas, you have great 
expertise, you have great skills, but if you don't do 
abortions, we won't do this.
    Now, the considerations are frequent. You know very well 
from working with victims of human trafficking, they often fall 
right back into it again. They are identified, then there are 
repeats, and they steal them off to other cities, and you have 
all kinds of issues and care for them. So, at times, you are 
taking a victim of human trafficking who is now pregnant, get 
them an abortion, they can immediately be snatched back up, 
taken to another city, and you have just put them right back in 
that situation again.
    So, to say if a person is raped in a human trafficking 
situation, the best thing we can do is get them to an abortion, 
and so the possibility of them getting right back on the 
street, and if you don't do that, we won't let you help in any 
of these areas and walk alongside you in this, to me is a very 
strange mark. You can help in all six of the comprehensive 
areas, but if you don't do abortions--specifically not just 
allow them, but promote them--if you don't promote abortions, 
then we won't let you help. That is the concern here.
    Eighty-nine to 69 is a pretty wide spread. ``Did not 
recommend for funding'' is a pretty strong statement to then 
reverse that and say, no, you are going to get the preference.
    Chairman Issa. The gentleman may respond if he would like 
to.
    Mr. Sheldon. Two observations. One is that that document 
was never brought to my attention.
    Second, when I understand that document was written, that 
was prior to the responses which we requested from the 
applicants, which had been in direct response to reviewers' 
comments that there was not sufficient detail in all of the 
applications.
    Chairman Issa. For the record, they were written on the 
same day, September 9th. So you may want to check the timeline, 
but it appears that that occurred.
    Additionally, for the gentleman, just to clear the record, 
Mr. Negash is the former head of that organization, and the 
person that was previously Mr. Negash's individual predecessor 
is now the head. So it is a close relationship, that basically 
the two switched places between that agency and the government 
and the government and that agency. But Mr. Negash did recuse 
himself.
    With that, we recognize the gentleman from Virginia for 5 
minutes.
    Mr. Connolly. Thank you, Mr. Chairman. And thank you for 
having this hearing.
    I must say that listening to some opine on this subject, 
not here of course, one is a little alarmed that some would 
become a latter-day Torquemada, willingly reinstating the 
Inquisition, only this time against the secular state.
    No member of this committee or of the body, the Congress, 
can purport to speak for the Catholic Church or for all 
Catholics. And I say that respectfully to my colleagues as a 
Catholic. We may actually, in a pluralistic society, as 
Catholics, have different points of view. And I would hope that 
difference in a pluralistic republic would be respected.
    We can disagree, but the idea that dissent and disagreement 
are to be somehow suppressed is not America, nor is it the 
American Catholic Church in America as I understood it growing 
up as a Roman Catholic who went for many years, through 
college, in Catholic education. So nobody speaks for me as an 
American Catholic and especially in a pluralistic society where 
we are trying to grapple with serious issues.
    Now, I hope this hearing is the narrow scope the chairman 
has said, but I am alarmed that the minority was denied 
witnesses; I am alarmed that new documents at the last minute 
are entered in the record, not shared with the minority but in 
the possession, apparently, of the majority for some time; I am 
alarmed when people use hyperbolic rhetoric which might suggest 
to some, certainly not to me, that actually the purpose of the 
hearing, as Mr. Tierney suggested, is to try to smear the Obama 
administration with a label that, if true, would be very 
disturbing. And as a Catholic, I would like to believe it is 
not true. In fact, there is plenty of prima facie evidence that 
it is not.
    I reiterate the question, Mr. Sheldon: Did you say that, in 
fact, in the last several years, $650 million has gone through 
your agency alone to Catholic entities in America? Is that 
correct?
    Mr. Sheldon. In the last 3 years.
    Mr. Connolly. And, Mr. Negash, you are in the refugee 
business. I assume Catholic Relief Services is the recipient of 
Federal money for refugee resettlement and care.
    Mr. Negash. That is correct.
    Mr. Connolly. Would you speak up? We can't hear you, sir.
    Mr. Negash. That is correct.
    Mr. Connolly. Any idea about the amounts?
    Mr. Negash. I believe that within the Office of Refugee 
Resettlement, the Catholic Bishops received more money than any 
other grantee.
    Mr. Connolly. More money than any other grantee.
    Mr. Negash. I believe so.
    Mr. Connolly. And would it also be true that CRS would be--
which is a wonderful organization; I have worked with it in my 
past--is also the recipient of AID dollars and PL-480, Food for 
Peace, dollars and commodities?
    Mr. Negash. I am not sure what type----
    Mr. Connolly. Take a guess.
    Mr. Negash [continuing]. Of funding they have.
    Mr. Connolly. Yeah, I think the answer is a big ``yes.''
    So the idea that there is some systematic attempt to--a 
bias implemented against the Catholic Church or Catholic 
entities is a libel and not true.
    In fact, is it not true, Mr. Sheldon, just from your agency 
alone and I think maybe a few others that the Obama 
administration has provided $100 million more to Catholic 
entities than the Bush administration? Is that correct?
    Mr. Sheldon. From what I have seen, it is. But I can't 
speak with----
    Mr. Connolly. And did you testify to Mr. Tierney that, as a 
matter of fact, your agency, after making the decision about 
this grant, actually awarded subsequent grants to the Catholic 
Bishops?
    Mr. Sheldon. That is accurate--$19 million 4 days later.
    Mr. Connolly. Okay. So we have pretty much put to rest 
whether there is a Catholic bias in this administration. There 
isn't.
    But the second concern I have is, what is the mission here 
of this grant award? It is to service victims of sexual 
exploitation against their will. Is that not correct?
    Mr. Sheldon. A substantial portion of those individuals who 
are victims of trafficking----
    Mr. Connolly. And is it true that the average victim is 
first victimized somewhere between the age of 10 and 14?
    Mr. Sheldon. The numbers I have seen indicate--personally, 
I know of victims as young as 12.
    Mr. Connolly. And did you indicate that one of the needs 
they have is family planning services, the wide array, 
including contraception, prevention and treatment of sexually 
transmitted diseases that, obviously, unfortunately, 
tragically, come with the sexual exploitation? Is that correct?
    Mr. Sheldon. That is accurate.
    Mr. Connolly. And did you indicate that, in this particular 
case, the Catholic Bishops indicated they would not provide 
such services?
    Mr. Sheldon. That is accurate.
    Mr. Connolly. Irrespective of the mission of the grant.
    Mr. Sheldon. The issue of family planning services they 
indicated they would not----
    Mr. Connolly. And is that the reason why ultimately, 
despite their ranking, the decision was made not to give them 
the grant in this one case because of the mission involved?
    Mr. Sheldon. A determination was made that there were three 
other applicants who were equally qualified who were willing to 
provide family planning and the full array of gynecological 
services.
    Mr. Connolly. I thank you. My time is up.
    Mr. Gowdy [presiding]. Mr. Sheldon, did the Catholic 
Bishops receive previous grants?
    Mr. Sheldon. Yes.
    Mr. Gowdy. And when was that?
    Mr. Sheldon. Catholic Bishops have been receiving grants 
from the Department of HHS for a long period of time.
    Mr. Gowdy. I mean specifically with respect to human 
trafficking.
    Mr. Sheldon. Yes, they----
    Mr. Gowdy. Did they receive a 5-year contract immediately 
preceding this?
    Mr. Sheldon. They received a contract I believe in the year 
2006.
    Mr. Gowdy. Ending in 2011.
    Mr. Sheldon. That is correct.
    Mr. Gowdy. All right. Was reproductive health not an issue 
then?
    Mr. Sheldon. I was not here then, nor was this 
administration here then.
    Mr. Gowdy. You didn't take the grant from them in 2010 
because of a failure to provide certain reproductive health 
services, did you?
    Mr. Sheldon. We extended the contract, as I recall.
    Mr. Gowdy. Right. And you have no issues with the 
performance of their contract.
    Mr. Sheldon. They had a strong performance under the 
requirements of that contract.
    Mr. Gowdy. In fact, and I will use quotes from your entity, 
they properly provided case management; high level of program 
competence; responsive to the needs of subcontractors, clients, 
and other entities; able to successfully provide trafficking-
specific services to clients.
    So if they had scored a 92 but still kept to their faith 
beliefs, would they have gotten the contract?
    Mr. Sheldon. They can still be true to their faith beliefs. 
As a matter of fact, sub-grantees of the current vendors have 
Catholic affiliations, and they can remain true to their 
Catholic teaching.
    Mr. Gowdy. Well, you said that there were equally qualified 
subcontractors. Why do you have a point system if you are going 
to ignore it?
    Mr. Sheldon. As I indicated in previous questions, the 
points were applied before we received responses as to the 
additional detail which the reviewers indicated they----
    Mr. Gowdy. Who is Jay Womack?
    Mr. Sheldon. Jay Womack is director of the----
    Mr. Negash. He is the deputy director of the program.
    Mr. Gowdy. Did he recommend giving the grant to the 
Catholic Bishops?
    Mr. Sheldon. I don't know that he made a recommendation, 
but I can't----
    Mr. Gowdy. But there was a recommendation made to give them 
the contract.
    Mr. Sheldon. As I indicated in the previous question, that 
document I never saw. I have heard it was around. But that 
would have been a recommendation, and that would have been a 
recommendation that would be made to policymakers, not career 
staff.
    Mr. Gowdy. There are 200-some-odd gynecological services 
that are included. Did you ask the Catholic Bishops what 
percentage of those 200 they were willing to perform?
    Mr. Sheldon. No. We asked them if they were willing to 
refer--not perform, refer--to entities that would provide the 
full range of gynecological services.
    Mr. Gowdy. All right. And, of the 200, how many were they 
willing to refer?
    Mr. Sheldon. They did not indicate in their application or 
in my request back to them for clarification.
    Mr. Gowdy. Did you ask the victims of human trafficking 
whether or not they were satisfied with the performance of the 
Catholic Bishops?
    Mr. Sheldon. Well, I was not around to talk to each of the 
individual victims that were served under this contract at the 
time. I have talked to other victims, as well as experts in 
this field, who have indicated that referral for the full range 
of gynecological services is an appropriate requirement for 
these individuals who have been victimized, forced into 
prostitution.
    Mr. Gowdy. So, you agree with me that it is dispositive. It 
is not just a strong preference, this is not just a preference, 
it is dispositive. Because, the truth be told, if the Catholic 
Bishops had scored a 100, you still wouldn't have picked them.
    Mr. Sheldon. That is not necessarily accurate.
    Mr. Gowdy. Well, would you have? If they had scored a 100--
is an 89 not enough?
    Mr. Sheldon. Well, I was dealing with the facts in front of 
me, not----
    Mr. Gowdy. Okay, well, assume this fact then. If they had 
scored a 95, would that have been high enough?
    Mr. Sheldon. I cannot--without looking at the facts, the 
other applicants, I cannot respond to a hypothetical.
    Mr. Gowdy. Well, you can't tell me what percentage of the 
200 services they were willing to provide or refer. You can't 
tell me what score would have been good enough to get a 
contract that they performed successfully on for 5 years. And 
that leaves me with the conclusion to draw, based on the 
evidence, that it is dispositive whether or not you will refer 
for abortion services. And you deny that?
    Mr. Sheldon. I do not think that is a good conclusion.
    Mr. Gowdy. Okay. Well, then, tell me what they should have 
done to get the contract. Other than score the second-highest 
score, be recommended by your own people, and perform well 
previously, what else should they have done?
    Mr. Sheldon. Mr. Chairman, I went back to the Catholic 
Bishops and asked them what their alternative was. They did not 
provide an alternative.
    Mr. Gowdy. Well, let me suggest an alternative, because 
during the litany of things that you say you have given grants 
to the Catholic Church for, it was also to improve the 
parenting skills of men. Did you consider giving them a human 
trafficking grant for only male victims?
    Mr. Sheldon. I did not.
    Mr. Gowdy. Did you consider giving them a human trafficking 
grant for only labor trafficking victims where there was not 
sexual abuse?
    Mr. Sheldon. We did not.
    Mr. Gowdy. The gentleman from Vermont, Mr. Welch.
    Mr. Welch. Thank you very much, Mr. Chairman.
    In 2006, ABC News--you, I am sure, remember this--
``Primetime'' premiered a story of a 15-year-old girl called 
Debbie from suburban Phoenix. She had been tricked by a casual 
friend into getting into a car with two older men. She was 
kidnapped from her own driveway. One of the assailants put a 
gun to her head and threatened to shoot her if she made any 
noise. And she was taken to an apartment. She was repeatedly 
gang-raped by four men. Debbie's captors then put 
advertisements on Craigslist and were earning hundreds of 
dollars a night forcing her into prostitution.
    She was forced literally to sleep in a dog crate. Remained 
captive for more than 40 days. She was threatened by her 
captors that they would hurt her family and throw battery acid 
in her face and on her 19-month-old niece if she tried to 
escape. Eventually, the police found her tied up in a drawer 
under the bed.
    Mr. Negash, I mean, I am asking kind of an obvious 
question. What psychological and physical traumas are 
experienced by girls who have lived through ordeals like this? 
And, unfortunately, Debbie is not the only one.
    Mr. Negash. This issue for me has been very, very 
difficult, simply because I spent almost 30 years of my life 
providing service to victims. I think whether the victims were 
trafficked or refugees, you know, it is a life-changing 
experience.
    But in this discussion I think we need to keep in mind that 
ultimately what we are trying to achieve is to provide the best 
possible services to the victims. If there is one thing that 
the victim actually always desire, it is to have the freedom to 
choose, the freedom to live independently. I believe the trauma 
of being a victim and the trauma of being a refugee and going 
through a process of being tortured and raped and humiliated is 
a trauma--it is a lifelong trauma. It is a scar that the client 
will always have.
    Mr. Welch. You know, there was a University of Pennsylvania 
study that said the average age of girls in the United States 
that were forced into commercial sexual exploitation was 
between 12 and 14.
    Mr. Sheldon, does the fact that the victims are so young 
when they are sexually exploited impact the kind of services 
they need and how you deliver them? And I would like you to 
elaborate on that, if you would.
    Mr. Sheldon. There is no question. As I indicated earlier, 
the eight young women that I visited in Chicago have had such 
huge psychological scars. It is a lot like domestic violence. 
You are afraid of your perpetrator, but you are also afraid of 
the unknown. Can I survive outside of this?
    Mr. Welch. Right.
    Mr. Sheldon. And their hope for the future, their whole 
self-respect, their self-image has been entirely destroyed. And 
that is the reason that I think we feel, as an agency, that 
providing the kind of effective case management----
    Mr. Welch. Uh-huh.
    Mr. Sheldon [continuing]. So that these individuals are 
given back the freedom that has been taken away from them.
    Mr. Welch. And that full range of case management services, 
how does ensuring that girls like Debbie get referrals for the 
full range of family planning services that can help them 
rebuild their lives?
    Mr. Sheldon. Well, I think that that is the reason we have 
case management agencies, to provide to them the array of 
options that are out there. Ultimately, it is that victim that 
we are trying to empower, it is the victim that will decide 
what services they will avail themselves of or what services 
they will deny.
    Mr. Welch. Mr. Chairman, I want to thank the witnesses, and 
I want to thank the chairman for the hearing, and yield back.
    Mr. Cummings. Will the gentleman yield?
    Mr. Welch. I will yield to Mr. Cummings.
    Mr. Cummings. I want to follow up on one of Mr. Gowdy's 
questions.
    If the other organizations, if they said to you, ``We will 
not provide these services,'' or gave similar language to what 
the Catholic Bishops did, I am just wondering, would they have 
suffered, perhaps, the same fate? Are you following my 
question?
    Mr. Sheldon. I am following your question. It would depend 
on what the other applicants--what the range of options were 
for the Department. And, in this particular case, we had three 
other applicants who were competent and the reviewers' comments 
indicate had the experience, with USCRI, 100 years of 
experience, in dealing with refugees and trafficking victims. 
So it would depend on what our other alternatives were. In this 
case, we had three qualified alternatives.
    Mr. Cummings. Okay. Thank you.
    Mr. Gowdy. The gentlelady from New York, Ms. Buerkle.
    Ms. Buerkle. Thank you, Mr. Chairman.
    And thank you to our panelists for being here this morning 
and for testifying here.
    I am co-chair of the Human Trafficking Committee for the 
Women's Caucus. So this is an issue that is very near and dear 
to me. And I understand the issue and the scope of the issue, 
and I understand--I have spoken on the topic. I am also a 
health care professional and spent many years in the domestic 
violence arena. So what we are talking about here today really, 
for me, is about the dignity of the woman and the victim.
    And I have to say, Mr. Sheldon, that--and I understand the 
scope of the hearing, and the chairman has laid it out and 
continued to emphasize the point about what we are here to talk 
about. But I think what concerns me most are your opening 
comments and some of the things you said with regards to this 
issue.
    Now, we have agreed on both sides of the aisle and you have 
testified that a lot of these young women and these victims are 
ages 12, 14. And so one of the things I hear is that we are now 
going to ask them to make decisions that are going to compound, 
and my colleague mentioned, compound the trauma--life-changing 
decisions. And you are putting them before people who only will 
think one way.
    And you talked about, and I will quote you, getting advice 
from people they trust. So, in my mind, what you are saying is 
those who don't offer abortion services they can't trust. What 
is it about the Catholic Conference that they couldn't trust 
that they wouldn't be allowed to be in and to get that grant? 
So that concerns me.
    I think the biggest concern is the age of these kids, and 
you are putting them in situations--they have no idea. They 
have been traumatized, they are young, they are not competent 
to make those kinds of decisions. And yet you are only offering 
them, given what has happened here and who has gotten these 
grants, you are only offering them one round of choices, and 
that is that abortion is probably the best choice to deal with 
your problem. And that is not fair to that woman, because we 
don't know, and I would say you don't know, the trauma of 
abortion. And my colleague mentioned it already, it may only 
add to the victimization of what she has gone through.
    You talked about this--you specified a strong preference 
for those who provide this full range of services. And the 
chairman talked about that. What is the strong preference? I 
mean, even with factoring in in the one section about full 
range of services, the Catholic Conference of Bishops, they 
achieved that 89 percent score. How do you define a strong 
preference?
    Mr. Sheldon. I think I have been talking about that.
    But let me articulate that nondirective counseling does not 
mean that you provide counseling which supports abortion. The 
question is whether you are willing to lay out for that 
individual what options they have available. In the case of the 
Catholic Bishops, there was an unwillingness to provide this 
option. And I recognize the sensitivity of this.
    I also believe that when you are dealing with case 
management agencies, particularly in the arena of human 
trafficking, there is a recognition of what is age-appropriate 
counseling. There is a recognition of the age of that 
individual and the difficulty that a child, as you have 
indicated, who has been enslaved for in cases a year to 3 
years, the difficulty that child has in comprehending what is 
happening in their lives.
    Ms. Buerkle. My time is clicking down here, and I want to 
make sure--I just want to get--because one of the other things 
you said is you want to make sure we offer those young victims, 
those victims, any victims, the best possible choices and the 
freedom to choose. And isn't having the Catholic Conference of 
Bishops and someone with a proven track record and someone who 
has given the whole range of services--food, clothing, shelter, 
legal help--they were recommended to get the grant, and you 
have excluded them. And so, therefore, I don't think that you 
have given these victims a full range of choices and the right 
to choose the services that they so deserve and they so need.
    With that, I will yield back my time. Thank you, Mr. 
Chairman.
    Mr. Gowdy. The chair thanks the gentlelady from New York 
and would now recognize the gentlelady from the District of 
Columbia, Ms. Holmes Norton.
    Ms. Norton. Thank you, Mr. Chairman.
    I couldn't disagree more with the gentlelady, who judges 
the issue by the exclusion of some services from victims.
    This is a rare, if not unprecedented, hearing. And I just 
want to say for the record, this is a hearing about public 
money. No one is entitled to a grant in the United States, 
faith-based or otherwise. There is no preference for any group 
to receive a grant. And each funding cycle is a new cycle.
    Public money in our country comes from people with many 
different backgrounds and many different views. They come 
particularly----
    Ms. Buerkle. Would the gentlelady----
    Ms. Norton. No, I am going to continue.
    They come particularly from people with many different 
religious views.
    So there is only one issue here. And that issue, it seems 
to me, is whether HHS followed or failed to follow the 
objective procedures for awarding a grant to victims, whoever 
is the organization. I don't see how Congress can be concerned 
with any but two issues: Were the procedures followed, and are 
we paying attention, first and foremost, to the victims, as 
opposed to the organizations, who, after all, in our system are 
in competition with one another.
    Now, so let me go through the processes to see whether any 
of the procedures were violated. Because the majority has 
suggested that HHS failed to follow its procedures. And I can't 
find it, but I want to cross-examine you on that view.
    The only thing I find in the act is the prohibition on 
organizations that support the legalization of prostitution, 
and no one has raised that as an issue here. And so I don't 
think the statute, as such, can be said to have been violated.
    So if we look, then, at the internal grant guidelines--and 
that is all we are entitled to do--there is a policy statement 
that says, ``an advisory review of discretionary grant 
applications conducted by a minimum of three unbiased reviewers 
with expertise in the programmatic area for which applications 
are submitted.'' The objective reviewer scoring is, and here I 
am quoting again, ``intended to provide advice to individuals 
responsible for making award decisions.''
    Now, Mr. Sheldon, the independent panel had to score the 
applications, but the scores were advisory and not dispositive. 
Is that the case?
    Mr. Sheldon. That is accurate.
    Ms. Norton. The panel scored the applications, provided its 
advice, and so I can't see that the internal policies were 
violated.
    So let's look at the funding announcement. Because the 
bishops applied even given what the announcement said. We don't 
have to conform the announcement with the organization. We are 
supposed to conform the announcement with what the victims may 
need. ``May'' is the operative word there.
    The funding announcement stated four separate times that--
in four different places that HHS would give strong preference 
to grantees that would refer victims to family planning 
services.
    Now, the document--and this is what I want to question you 
about--also said that scores would be one element in the 
decisionmaking process and that they would not include a 
reduction in points for those applicants who were not able to 
provide a full range of referrals. I would like you to explain 
that.
    And after explaining that, my question, of course, is, do 
you think all of the procedures were followed?
    Mr. Sheldon. Yes. And let me articulate, as I have before, 
I think the reviewers did a very good job. And they indicated 
strengths and weaknesses in all of the applications and 
indicated that all of the applicants did not provide sufficient 
detail in several areas. Then they scored. Based on their 
requests for additional detail, we went back to all the 
applicants and requested additional information.
    The answer to your second question is, yes, I believe that 
we complied with all of the grant requirements----
    Ms. Norton. You did not reduce the points?
    Mr. Sheldon. Pardon me?
    Ms. Norton. You did not reduce points for applicants who 
were not able to provide a full range of referrals?
    Mr. Sheldon. We did not.
    Chairman Issa. The gentlelady's time has expired.
    I would now ask unanimous consent that the ``Attorney 
General's Annual Report to Congress and Assessment of U.S. 
Government Activities to Combat Trafficking in Persons (Fiscal 
Year 2009),'' published 2010, be admitted into the record.
    Without objection, so ordered.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T3939.040
    
    Chairman Issa. We now recognize the gentleman from Texas, 
Mr. Farenthold, for 5 minutes.
    Mr. Farenthold. Thank you, Mr. Chairman.
    And, Mr. Sheldon, Mr. Negash, thank you for being here.
    Let's, kind of, get the cards on the table here. Just from 
having listened to the questions on, in light of the scope of 
this hearing, the full range of permissible gynecological and 
obstetric care services kind of boils down to abortions or 
contraception. Would that be a fair statement?
    Mr. Sheldon. There is a range, but in the discussion here 
it appears that that is what the questioning is on.
    Chairman Issa. If the gentleman would yield, for the 
record, there are three. There is also sterilization. Those are 
the only three for which the Catholic Bishops had an objection 
to providing, out of 200.
    Mr. Farenthold. Thank you, Mr. Chairman.
    And I think in your discussion with Mr. Gowdy, Mr. Sheldon, 
the question basically came down to, was the unwillingness of 
the Catholic Bishops to provide these three services 
dispositive of their application? I mean----
    Mr. Sheldon. These funding announcements, we looked at the 
totality and determined that all four applicants had the 
competence to administer the grant. Ultimately, it came down to 
exercising the preference.
    Mr. Farenthold. And so you couldn't imagine any scenario in 
which the Catholic Bishops or any other group who refused to 
refer these three type of services would be awarded this grant?
    Mr. Sheldon. That is not accurate, respectfully, that it 
would have been--because a lot of the sub-grantees of the 
current grantees have the same religious faith, the same 
religious belief. But they have--basically, those organizations 
have worked with those individuals so that they would not have 
to violate their Catholic teachings.
    Mr. Farenthold. Well, I mean, it seems to me there are two 
separate Federal laws, the Weldon amendment and the Coats-Snowe 
amendment, that specifically prohibit HHS from discriminating 
against health-care providers that do not perform or refer to 
abortion. Why do you think those aren't applicable here?
    Mr. Sheldon. I checked with general counsel on this, but 
let me point out that, as I indicated, that sub-grantees are 
faith-based organizations who share the religious belief of the 
Catholic Bishops, are still providing services under this 
contract. But victims who require the additional services 
outlined are not served by that individual sub-grantee.
    Mr. Farenthold. All right. I am not sure that answered my 
question, but just because I have already used up more than 
half of my time, I do want to follow up with a couple of 
questions with respect to what you just said about the victims' 
desire or need for these services.
    Have any of your organizations ever conducted an evaluation 
of human trafficking victims to ask them how important they 
consider these services to be?
    Mr. Sheldon. Yes. There is research in that arena that we 
will be happy to provide the committee.
    Mr. Farenthold. I would like to see this, because, again, I 
think we run into a situation where, as, again, Mr. Gowdy 
pointed out, of the 2,271 victims that the USCCB helped, 
almost--well, 988 were men and 1,283 were females. Does this 
sound correct to you?
    Mr. Sheldon. I am not sure I can speak to personal 
knowledge.
    Mr. Negash. I don't have the figures with me, but we can 
get back to you with that.
    Mr. Farenthold. All right. But a good percentage of them 
were men. That would be a fair statement? I mean----
    Mr. Negash. Again, you know, I will have to get that 
information.
    Mr. Farenthold. And so, guys don't require OB/GYN services, 
right?
    Mr. Negash. That is correct.
    Mr. Farenthold. And so, USCCB could continue to service men 
without any problem related to this. Would that be correct?
    Mr. Negash. That is correct.
    Mr. Farenthold. And what about the females who were 
currently in the process with USCCB? What happens to these 
women?
    Mr. Sheldon. As I indicated earlier, the USCCB has been 
very cooperative to assure that victims that are currently 
being served continue to be served. And I would have to 
compliment them on the smoothness by which we have made this 
transition.
    Mr. Farenthold. And, finally, again, I think Mr. Gowdy 
pointed out and I would like to reiterate again, not all 
victims of human trafficking are involved in the sex trade. 
There is slavery for labor and other purposes.
    Mr. Sheldon. Yes. I think the numbers who were actually 
served under the contract who were victims of sex trafficking 
was approximately 19 percent. The broader numbers that we have 
seen indicate a much higher percentage of not only sex 
trafficking but a combination of sex and labor trafficking.
    Mr. Farenthold. You know, I just remain troubled that the 
U.S. Catholic Bishops were discriminated here for their faith-
based belief and unwillingness to provide abortions. And I just 
want to be on the record that I and I think many members on 
this panel are troubled by this. Whether it actually violates 
the letter of the law, as I referred to earlier, I think it 
clearly violates the spirit of those laws. And I am extremely 
disappointed at the way this is handled.
    I will yield back.
    Chairman Issa. Would the gentleman yield?
    Mr. Farenthold. Certainly.
    Chairman Issa. I would just like to, since you brought this 
point up, to clarify for the record.
    So the figures you have been giving all day of these higher 
numbers, much higher numbers, are not the numbers within this 
program but numbers that are not supported either by the 
Attorney General's annual report to Congress or by the actual 
numbers reported by the previous oversight for 5 years of these 
activities under your jurisdiction. Is that correct?
    Mr. Sheldon. They are not a reflection, but I would be 
happy to provide the committee with the research that we have 
seen in this arena.
    Chairman Issa. Well, any independent research we would 
appreciate having.
    I would ask that the clerks annotate anyplace the witnesses 
answered to higher numbers or agreed to higher numbers, that 
they annotate the actual numbers that are in the record from 
Health and Human Services and, appropriately, the Attorney 
General's Office. Because we want to make sure that the 
misstatements that you made earlier in agreeing to much higher 
numbers are corrected for the actual numbers that occurred.
    With that, we recognize--with that, we have concluded on 
that side, so we would now go to Mr. Kelly of Pennsylvania.
    Mr. Kelly. Thank you, Mr. Chairman.
    And thank you both, Mr. Sheldon and Mr. Negash, for being 
here.
    And I have been looking through this, and I know the 
question really today was, was the Catholic Church 
discriminated against? And so I go back in and I am looking and 
I am seeing that there is language that I am wondering about, 
regarding the development of the language giving preference to 
applicants that provide all reproductive services. And I read 
through and it says, for the first time--this is the first time 
ever--this grant, ``The director will give strong preference to 
applicants that are willing to offer all the services and 
referrals delineated under the project objectives. Applicants 
that are unwilling to provide the full range of services and 
referrals under the project objectives must indicate this in 
their narrative.''
    Now, what I am trying to understand, was there any 
discussion at all when they developed this language about the 
conscience clause?
    Mr. Sheldon. This language was developed--I have only been 
the Assistant Secretary for 6 months. This language was 
developed before I came to the agency.
    Mr. Kelly. And I think--so you don't know. Does anybody 
know how the language was developed?
    Mr. Negash. The----
    Mr. Kelly. Because this is the first time this has ever 
happened. And, obviously, the Council of Catholic Bishops have 
a pretty good track record because I am hearing how much money 
they have gotten in the past, and they were granted this money 
before, they have had it for 3 years, and they have done a 
pretty good job with it. But it comes down to this one issue.
    Mr. Negash. The drafting of the funding announcement is a 
very collaborative process. In that process, the policy 
experts, the Office of General Counsel, and career employees 
were involved. So I believe that through the process of 
developing the funding announcement, throughout the process we 
have been consulting the Office of General Counsel to make sure 
that the statement, and especially the services to be provided, 
is consistent with existing statutes and law.
    Mr. Kelly. Okay. But there is existing language out there 
under a conscience clause. So I am asking, was there any draft 
that included anywhere in there the conscience clause?
    Mr. Negash. Again, throughout the process of developing 
this announcement, we had consulted the Office of General 
Counsel to make sure----
    Mr. Kelly. And I understand you consulted the Office of 
General Counsel. And, you know, in my lifetime, I know that 
there is a huge difference between what is legal and what is 
right. And I know we debate this all the time.
    But you could structure the language of this grant that 
would eliminate the conscience clause. And this is what bothers 
us. And I think when I look at your scoring and I see how high 
the Council of Catholic Bishops have scored and I know their 
track record--and I think this is where the question comes in: 
Why? Why now? Why do we go away from the way we used to look at 
things? Why do we have a score and then disregard the score and 
say, ``These folks came in pretty high, but you know what? Not 
high enough, because they didn't agree to provide all?''
    And I am asking, where is the conscience clause involved in 
it all? And I would like to know if you have any documents, 
including emails or any language or anything at all that is 
applicable, that you could supply it to this committee. Because 
I have to tell you, just coming from a private background, I 
look at this and I say, you know what? We got gamed on this. We 
structured this so tightly, we put language in there that would 
preclude the Catholic Bishops participating, even though they 
have a great track record, even though they score so high, even 
though they outscore other people. And it comes down to, so why 
was that language put in there? And why the disregard of the 
conscience clause? Why?
    And while it may be legal, and maybe that is the fulcrum 
that it turned on or the point that it turned on, I have to 
tell you, it is very disappointing for me, not just as a Member 
of Congress, as a citizen of the United States, to look and 
say, so you know what? They didn't do what you wanted them to 
do, so we structured language to keep them out of the hall. We 
fixed it, we gamed it so they couldn't participate.
    All the good work they have done, everything indicated in 
their past history was negated by the language. That is not 
right, gentlemen. It is not right. It doesn't make sense to me. 
It is not American. And, to me, this is absolutely pathetic 
that we have to have a hearing to discuss this. This is so 
obvious to me a way of eliminating faith-based people from 
being able to participate by structuring language that would 
leave them out.
    And, with that, Mr. Chairman, I yield back.
    Chairman Issa. Would the gentleman yield?
    Mr. Kelly. Yes, I will.
    Chairman Issa. Mr. Sheldon, you did deliver, HHS delivered 
us a conference call memo from August 11, 2011. Are you 
familiar with the document?
    Mr. Sheldon. No.
    Chairman Issa. Okay. Well, I am now familiar with it, and 
it very much goes to Mr. Kelly's statement.
    When reading the document in ordinary English, it becomes 
obvious that every single part of what is entitled the 
``National Human Trafficking Victims Assistance Program Review 
Panel Conference Call of August 11''--and I could even give you 
the passcode, but I suspect it doesn't work anymore--what it 
shows me is that you put a number on everything except the 
preference that Mr. Gowdy, when sitting here in the chair, made 
clear was so great that 20 points was weighted for it.
    How do you answer today that you put over 20 points on this 
strong preference? Because you put a number on it; the number 
was the difference between 69 and 89 or greater. How do you 
tell us today that you would have in a legitimate way weighted 
20 points or more on this?
    Mr. Sheldon. As I indicated earlier, we took the reviewers' 
comments, the scores, the responses to our questions back to 
applicants which the reviewers had indicated had a lack of 
detail in all of the applicants' scores, all of that into 
consideration in making a final decision. I believe that----
    Chairman Issa. Mr. Sheldon, please answer the question--the 
time has expired--if you can, briefly.
    Mr. Sheldon. No, that is----
    Chairman Issa. Okay. Then we will get it in a follow-up.
    Mr. Labrador is recognized for 5 minutes.
    Mr. Labrador. I yield back.
    Chairman Issa. The gentleman yields back to me, so now we 
have 5 minutes.
    Mr. Sheldon. Okay.
    Chairman Issa. Let's go over this again. The numbers are 
the numbers: 20 points, which is roughly--you know, it is more 
than 25 percent difference. When you are looking at the delta 
between 89 and 69, you realize, forget about the 110 
hypothetical, this is a huge difference.
    You said you take responsibility for it, even though the 
committee sees the hands of other political appointees very 
much involved in this. And they did make trips to the sixth 
floor, and they did have consultation with the Secretary 
directly. And we believe that that is part of our overall 
investigation.
    But the question for you, with the gentleman from Idaho's 
time: You didn't put a weighting, an analytical weighting--at 
the end of it all, the recommendation by civil servants, by 
career personnel, before political appointees with a pro-
abortion bent in mind, before they weighed in, you had a career 
professional consensus that the Council of Catholic Bishops 
organization should have been included for all or part of this. 
So it was deemed not acceptable over a single issue. The issue, 
the code issue, is these health services, which is basically 
abortion, contraceptive, and sterilization--3 out of 200.
    Now, I ask you today, is there any way this committee can 
legitimately not believe that the preference, the strong 
preference, represented at least 20 points or more than 25 
percent difference, thus making it virtually impossible for an 
organization that was not going to essentially administer and 
pay for abortions to have this preference? Was there any way 
that I can reach another conclusion?
    Mr. Sheldon. As I indicated, we looked at the reviewers' 
comments, we looked at the scores, and we looked at the answers 
to the questions that the reviewers indicated had not been 
provided in sufficient detail in making a policy----
    Chairman Issa. No, no, no, you are going back to your 
talking points. We are not worried about the absence of detail. 
The fact is, you gave a second bite and a third bite at the 
apple to groups you wanted to qualify, or that HHS wanted to 
qualify.
    Now, one of the considerations this committee has to look 
at broadly is, the damage is done. This complaint did not come 
from the Catholic Bishops; this complaint came from our 
recognition that if you can use this kind of political-
appointee judgment based on whether or not somebody will 
provide abortions, then can't HHS start having a strong 
preference to avoid doctors who will not do referrals for 
abortions, nurses who will not work in abortion clinics, 
Catholic hospitals that will not, in fact, perform abortions?
    Is there any reason that I shouldn't see that this strong 
preference in the Obama administration is going to be worked in 
and that the conclusion we can reach today, based on the actual 
analytics we have, is that you have to win by more than 25 
percent, statistically impossible, or you don't win at all?
    The fact is, a bidder who was in a statistical tie with the 
top bidder was eliminated based on one item for which there was 
a 20-point difference. The bottom line is you eliminated them 
based on a single issue. And this document, which is in the 
record, from August 11th makes one thing very clear, which is, 
everything else is scored in numbers, and you made a decision 
to score no number on something that had a 20-point preference 
or greater.
    Isn't it fair to say that this committee must in the future 
write into law a requirement that if you are scoring by numbers 
you score everything by numbers, and that you never again be 
allowed to have a subjective earmark-type preference that 
simply says, we put numbers on everything and then we don't put 
numbers on something that is effectively a 100, a yes/no, you 
either do it to our satisfaction or you don't get the contract?
    Mr. Sheldon. Mr. Chairman, this department will 
consistently follow the law. And if the law is changed, then we 
will do that.
    Chairman Issa. The law very clearly says that this was not 
elimination. There was no question about that. Because the law 
allowed for the Catholic Bishops organization to have this 
contract and perform satisfactorily for 5 years or more.
    Let me just conclude on the gentleman's time with one 
question. If you are saying you followed the law and you 
followed procedures, then you are saying it is within the law 
to say, if you don't provide contraceptive services, abortion, 
and sterilization, that, in fact, it is within the law for you 
to deny the award of the contract?
    Mr. Sheldon. It is within the law to respond to the needs 
of this population, yes, I----
    Chairman Issa. That wasn't the question to be answered. You 
denied this grant award based on these three procedures the 
Catholic Bishops were not willing to do. And in your own 
testimony, before you answer, you said you renegotiated with 
the Catholic Bishops. You tried to get them to cave in some 
acceptable way on these narrow three issues. And when you found 
that they didn't, you eliminated them from the grant process.
    Mr. Sheldon. We asked for a response to their suggestion in 
their application that they were willing to explore alternative 
mechanisms by which ORR could carry out this particular 
function.
    Chairman Issa. Isn't it true--or, actually, no, the time 
has expired. I don't want to exceed. I thank the gentleman for 
the time and yield back.
    We now recognize, having all Members had time, the 
gentleman from New Jersey, Mr. Smith, who has waited patiently 
to be the last questioner on the first round.
    Mr. Smith of New Jersey. First of all, let me say, Mr. 
Sheldon, you know, the art of misdirection is alive and well in 
Washington. We have heard a rattling off of amounts that 
Catholic organizations have received in other programs, which 
only, I would suggest respectfully, underscores the competence 
and the effectiveness of the mission of those Catholic 
organizations.
    But why we are here today and why we are so concerned--
again, I authored this legislation that established the program 
we are discussing--is that there is a new abortion referral 
policy which is new policy. It is brand new policy. It is 
radical, it is new. It wasn't there before, but it is there 
now. So that is why we are here. So saying look how much we 
gave over here or there, that is the art of misdirection. And 
members of this committee, and certainly you I think, have 
engaged in that, and I say that sadly.
    Let me also say you can't have it both ways. First you 
compliment the USCCB and their extensive network of 
subcontractors by saying that the three awardees are entering 
into contracts with them, a case of benign cherry-picking, I 
would suggest.
    But then you say that--and I think you said this very 
critically--that those three NGO's are ahead of where the USCCB 
was 5 years ago when they got the contract. That is because 
they had to establish that whole network. So, please, don't 
offer up that very false comparison, because it is very, very 
misleading.
    Let me ask: In what other programs has ACF approved 
applications that received scores that were 20 points below 
that which the NGO that didn't get the award? Are there 
examples?
    Mr. Sheldon. I am sure there are.
    Mr. Smith of New Jersey. Can you provide them for the 
record?
    Mr. Sheldon. I can only speak to my personal experience.
    Mr. Smith of New Jersey. Have you ever been a part of that?
    Mr. Sheldon. I have only been here 6 months.
    Mr. Smith of New Jersey. But you have approved a number of 
awards thus far. Have you taken those who had inferior scores 
and jumped them to the head of the line in order to get----
    Mr. Sheldon. There are several grants that we signed off on 
where we have done, for instance, geographic skipping in order 
to make sure that various----
    Mr. Smith of New Jersey. Where there have been scores done 
by very competent reviewers who suggest 89, 74 for Tapestry, 69 
for USCRI; 89, like I said, for the U.S. Catholic Conference of 
Bishops. As the chairman has said repeatedly, a 20-point 
spread. Are there examples?
    Mr. Sheldon. As indicated previously, the scores are 
advisory, but they were also prior to requests for additional 
information from the applicants.
    Mr. Smith of New Jersey. So you moved the goalposts after 
it was all over. So the reviewers are out of it now, and now 
you are going to make your own decision?
    Mr. Sheldon. No, we were specifically responding to the 
comments that the reviewers had made in their comments.
    Mr. Smith of New Jersey. Let me ask you this: Are you 
familiar with Executive Order 13279?
    Mr. Sheldon. Not by number.
    Mr. Smith of New Jersey. How about the President's 
executive order entitled ``Fundamental Principles and 
Policymaking Criteria for Partnerships with Faith-Based and 
Other Neighborhood Organizations?''
    Mr. Sheldon. Yes, in general.
    Mr. Smith of New Jersey. In that EO, which prohibits social 
grant making agencies from discriminating against prospective 
grantees on the basis of religion or religious beliefs, as well 
as the interference of political appointees in the 
decisionmaking process, do you concur with that? Do you think 
that is important?
    Mr. Sheldon. I do.
    Mr. Smith of New Jersey. Now, the President said decisions 
about awards of Federal assistance, financial assistance, must 
be free from political interference or even the appearance of 
such interference and must be made on the basis of merit, not 
on the basis of the religious affiliation of the recipient or 
organization or lack thereof.
    Do you agree with that statement?
    Mr. Sheldon. I do.
    Mr. Smith of New Jersey. Then why did you break it? Why did 
you supersede it and do something precisely contrary to that 
when you had a proven NGO, competent in the field, that had 
gotten high marks from your agency previously, from HHS. Even 
on the medical issue, they were scored on that and found to be 
completely competent and doing an exemplary job.
    Mr. Sheldon. I don't believe we broke it.
    Mr. Smith of New Jersey. Okay. Let me ask you this. How far 
down in the rankings by expert reviewers were you prepared to 
reach before you would have considered making an award to the 
USCCB? I mean, had USCRI been 65 rather than 69, 50. Because 
you did say before, and I hope you will correct this because I 
thought it was a misstatement, you said they were equally 
qualified. Not according to the reviewers. All four of those 
NGO's were not equally qualified. But is that just your 
opinion, or what is it based on?
    Mr. Sheldon. I think if you will look back at the 
reviewers' comments, it will indicate that each of the 
applicants either had a strong capacity to lead the project, 
had considerable experience in managing large refugee 
trafficking projects, language similar to that.
    Chairman Issa. I would ask unanimous consent that the 
gentleman have an additional 3 minutes. Would the gentleman 
yield?
    Mr. Smith of New Jersey. I would be happy to.
    Chairman Issa. Isn't it true that ``not qualified'' for one 
of them was clearly there? You say that they were all 
qualified, but your reviewers had a recommendation that one of 
the applicants was not qualified.
    Mr. Sheldon. I believe if you read the totality of the 
reviewers' comments, Tapestry, which may be the one you are 
referring to, indicated they had developed a strong 
organizational plan. They had staff experience and qualified. 
They had confirmed that the staff were qualified.
    Chairman Issa. In the State of Georgia. In one State.
    Mr. Sheldon. In the----
    Chairman Issa. Okay, I just want to understand. You fully 
qualified somebody with a low score and one State experience, 
and then they are all fully qualified.
    I yield back to the gentleman. Thank you for yielding.
    Mr. Smith of New Jersey. Do you want to correct your 
testimony?
    Mr. Sheldon. No, I do not want to correct my testimony.
    Mr. Smith of New Jersey. You say they are equally 
qualified.
    Mr. Sheldon. I indicated that we believed that these 
individuals were equally qualified to administer the 
contracts----
    Mr. Smith of New Jersey. Even though the HHS review panel 
stated ``Regarding USCRI, the overall level of detail in the 
proposal is insufficient to ensure that the project will be 
established and run to an effective level and that the 
management plan is credible and comprehensive. There is a 
complete lack of information on specific activities and the 
timeline is vague, inhibiting evaluation of their 
reasonableness.''
    That is not my words. That is your reviewers.
    Mr. Sheldon. And if you read the reviewers' comments on all 
the applicants, for instance, USCCB, ``The proposal lacks 
detail on shelter models.''
    Mr. Smith of New Jersey. So you pick out one, shelter 
models. This was a comprehensive, very negative assessment by 
the reviewers. You pick out shelters. We are still in the 
infancy of shelters. I know, because I am working the shelters 
issues at home and abroad. So don't pick out one and somehow 
juxtapose it as somehow they are equally weighted.
    Let me ask you this: In terms of the Snowe-Coats or Coats-
Snowe and the Weldon conscience clause, are they applicable 
here?
    Mr. Sheldon. We checked with our general counsel's office 
through the process and believe we are in line with all 
statutes.
    Mr. Smith of New Jersey. So are you saying that those 
statutes apply to this grant?
    Mr. Sheldon. I am saying that we checked with the general 
counsel's office, as I would in any occasion.
    Mr. Smith of New Jersey. But you are saying you checked. 
You are not telling me what they said. Do those two laws, 
conscience clause laws, have application to this grant or these 
grants that had been let?
    Mr. Sheldon. I would be happy to respond to you in writing 
as to what the general counsel's office position has been.
    Mr. Smith of New Jersey. So you don't know?
    Mr. Sheldon. I do know that we were told we were consistent 
with all applicable statutes.
    Mr. Smith of New Jersey. That is just broad. There are two 
very important conscience clause protections. A conscience 
clause is obviously in the news every day of the week now. 
There are 12 nurses at the UMDNJ in New Jersey who are being 
compelled to be complicit in abortions, who are now in a 
Federal suit that will be up in about a week, simply because 
they have been told, You do this or you are demoted or you are 
reassigned or you are fired. So conscience clauses are very 
much in the cross-hairs of the abortion lobby. We know it.
    Are those two laws applicable to these grants? You are the 
head of it. I would like to know.
    Mr. Sheldon. I believe they would be applicable. I believe 
we have not violated them.
    Mr. Smith of New Jersey. How many victims of trafficking 
and their family members who were being served at the end of 
the contract with the USCCB experienced a break in services and 
how many others are still not receiving services?
    Mr. Sheldon. Again, I would compliment the Bishops on 
their----
    Mr. Smith of New Jersey. I am not looking for compliments 
for them or anyone else. How many are not getting services?
    Mr. Sheldon. I am not aware of any numbers.
    Mr. Smith of New Jersey. You are not aware of anyone who 
has not gotten services.
    Chairman Issa. The gentleman's time has expired. Do you 
want to finish up?
    Mr. Sheldon. To my personal knowledge, no.
    Chairman Issa. I thank the gentleman from New Jersey.
    We now go to the--this is the second round--we go to the 
gentleman from Michigan, Mr. Walberg, for 5 minutes.
    Mr. Walberg. Thank you, Mr. Chairman. I thank you for the 
second round as well, because, frankly, it is an opportunity to 
really get the fullness of what has gone on here. This is 
really, as I understand it being a Protestant, not an attack on 
the Catholic Church or even one of its entities. They just 
happen to be a solid, positive, caring organization that is 
seeking to reach and meet needs. I wish we would be dealing 
with Samaritan's Purse here or Compassion International or any 
others that would be offering these same services, but the 
Catholic organization was the one that is in question here. So 
it is really not an issue of saying this is an attack on them.
    It also doesn't seem to be an attack on the money, as some 
of my colleagues on the other side of the aisle seemingly want 
to point out that the Catholic Bishops received dollars for 
their programs in nutrition, in shelter, in medical assistance, 
and I am sure there are others as well. I forget some that were 
mentioned. But, yes, they received support to do those things.
    They received support to do those things apparently as long 
as it did not come anywhere near the issue of one specific 
issue, and that is abortion services and that is family 
planning. That goes directly against the principles of many of 
us here who believe in the foundational principles of this 
country. That is the concern that I see that is going on.
    When we talk about equally qualified, they have gone beyond 
being equally qualified, meaning criteria that was put in place 
and evaluated by a hearing panel.
    This hearing really is about the concern that we have about 
arbitrary social engineering and its dangers. It is a concern 
that we would have that would say that the victim--and indeed 
there is tremendous victimization that we are talking about 
here that goes on--but an unwillingness to accept the fact that 
has been accepted before that there are policies and principles 
of organizations that go beyond the one victim and goes to the 
fuller victimization that includes even the unborn child. That 
is my concern.
    And the fact that we have law in place, Weldon-Snowe, that 
your counsel has indicated isn't being superseded or violated, 
and yet the concern about the direction even of the Secretary 
of HHS on this particular issue, that would seem to indicate 
that, yes, it will be perceived as not being violated in order 
to carry out the social engineering that goes on.
    Mr. Chairman, I applaud you for holding this hearing, and I 
think that to assume anything other than the fact that this is 
not about religion or a specific religion, that this is not 
about the money that is given to that same entity for other 
issues, but the fact this is about showing that we have 
broached something that we never countenanced here in the past 
in this great country, where on the basis of strongly held 
religious moral belief, you will be discriminated against. I 
think that is what we are looking at.
    I would be glad to yield my time to the gentleman from New 
Jersey or the chairman again for further questioning.
    Chairman Issa. If the gentleman wouldn't mind yielding to 
me, and I will try to make it up to the gentleman from New 
Jersey.
    There is a question that has been just driving me crazy, 
Mr. Sheldon. You have within Health and Human Services all 
kinds of questions about abortion, contraception, 
sterilization, and this isn't the only time it pops up within 
the broad Cabinet position. If you have a mandate under 
Executive Order 13279 clearly saying you cannot preclude 
someone based on religious beliefs, if the Catholic Bishops 
made it clear that this problem was the result of their 
religious beliefs--and they clearly did that with you, I don't 
have to call them to find that out--didn't you have an 
obligation to square the difference between 13279, which said 
you couldn't basically give a strong preference against a 
religious belief, which you did, because the two were 
inseparable? Didn't you have an obligation not ask the Catholic 
Bishops for a workaround, but to produce proposed workarounds 
that were acceptable to HHS?
    Did that ever cross your mind, that that was really your 
obligation, your obligation to square an executive order that 
said you couldn't have this strong preference against their 
religious beliefs, when in fact you clearly had a strong 
preference against the result of their religious beliefs?
    Mr. Sheldon. I do not believe that is the case.
    Chairman Issa. Well, you can choose not to believe 
something, but this is not a deniable fact here. These three 
problems which were determinative in whether they got this 
grant were the result of their religious beliefs, and they 
articulated that to you, and you preferred others because of 
the result of their religious beliefs, didn't you?
    Mr. Sheldon. We made a decision to----
    Chairman Issa. Please just answer the question. The time 
has expired and it is easy enough. You did make an award around 
what they told you was their religious beliefs preventing those 
three procedures, didn't you?
    Mr. Sheldon. I do not believe we did.
    Chairman Issa. Then how the heck in the world can you say--
you know what, I will take additional time when it is my own. I 
don't want to run over.
    With that, we recognize the gentleman from Virginia, Mr. 
Connolly, for his 5 minutes.
    Mr. Connolly. Mr. Chairman, if you wanted to finish your 
thought, I gladly yield to you such time as you may require.
    Chairman Issa. I thank the gentleman. I do want to try to 
get this out.
    Mr. Connolly. Mr. Chairman, I just plead that I get my 5 
minutes when you are finished.
    Chairman Issa. The gentleman's plea has been heard.
    Mr. Connolly. I thank the chairman.
    Chairman Issa. I think this is important to make the 
record. I want to be fair. I don't want this to be one side or 
the other on this. You were told by the Council of Bishops in 
this consultation, I believe, that these were religious beliefs 
that prevented them from providing these procedures, at least 
in the way you originally envisioned them, correct?
    Mr. Sheldon. I never had any conversations with the 
Bishops. But I----
    Chairman Issa. Or is it your understanding that this 
preclusion is because of their religious beliefs?
    Mr. Sheldon. I understand their religious beliefs. The 
contract was about the delivery of services and our decision 
was based on the merit of people who could provide those 
services.
    Chairman Issa. No, I understand that. But, if I am an 
Orthodox Jew and I tell you I cannot--I cannot drive a car on 
Friday night, and you have a contract that says I need a driver 
7 days a week, and you know I can't do it on Friday night, 
don't you have a clear prohibition by an Orthodox Jew that he 
cannot or she cannot perform that duty? And then aren't you 
dealing with the executive order that you have? You are asking 
someone to do something which cannot be done under their 
religious belief, and you either have to say, I am sorry but I 
am precluding you because of your limitations under your 
religious belief, or not? Isn't that the real question here?
    Mr. Sheldon. I believe if I have a requirement for certain 
kinds of services, those individuals who are willing----
    Chairman Issa. So your answer is if I am an Orthodox Jew 
and it is Friday night and I tell you that I can't drive you, 
that in fact you are only dealing with a service, you are not 
dealing with a religious belief?
    Mr. Sheldon. And if I said to you, please come back with an 
alternative as to how I can get the service I need on Friday 
night and you came back with an alternative as to how that 
could be done, I think that would be a different story.
    Chairman Issa. Well, they don't have the responsibility 
under the executive order. You do. And that is the point I am 
trying to make. You had the ability to modify the contract. You 
had the ability, within the contract provisions, you could have 
said okay, we are going to have separate administration, a 
separate procedure. We are going to recognize that a limited 
amount of people will go to their doctor--because they sent 
people to doctors, that wasn't the question--to go to their 
doctor. And these other procedures in the case of rape, which 
is allowed under Federal law--we are not dealing with all 
abortions, we are only dealing with rape-based abortions for 
Federal funding--that Medicaid can do it.
    In the case of sterilization, in the case of contraception, 
you had it at HHS, the ability to prescribe an alternative so 
that you could meet both your perceived contract needs, which 
you wrote, and the executive order that is still in place, 
didn't you?
    Mr. Sheldon. And that is the very reason we went back to 
the Bishops and asked them to provide the details of the 
alternative that they said they would be willing to do.
    Chairman Issa. I appreciate that, Mr. Sheldon, and I know 
we are not at odds, other than my point to you--and I 
appreciate the gentleman from Virginia, who is going to get his 
full 5 minutes--was you had the obligation of the executive 
order and you had the obligation to meet what had been written 
as a perceived list of services. And we are not arguing today 
specifically about whether those services are right or wrong, 
abortion, any of that, or even, you know, the contraception 
question or any of those. We are arguing over who had the 
responsibility. And you seem to think repeatedly in every 
answer, the Bishops had the responsibility. And I am going to 
say that, at least from this position in the chair, that we the 
government have the responsibility to square executive orders 
and the law and our request for proposals and grant writing. It 
is not for the religious-based person who says, ``I can't drive 
on Friday night through Saturday at dusk because of my 
religion. And, yes, there is somebody else who can't do it on 
Sunday.'' Let's reconcile that. It is our obligation as 
government, at least that is my view.
    I thank the gentleman from Virginia. He is very kind. He is 
recognized for 5 minutes.
    Mr. Connolly. I thank the chair.
    I actually want to follow up on I think where the chairman 
is trying to get at, because I actually have the same set of 
concerns in terms of how the decision was arrived at. But I 
want to clear away some debris, since I have been gone to 
another hearing.
    I think if there were suspicions that this had something to 
do with a bias about a particular denomination, I think the 
evidence is overwhelming that that is not true. So I think our 
fears about that, if they existed before this hearing, can now 
be allayed.
    With respect to abortion, Mr. Sheldon, is there a single 
penny in this grant award that funds abortion directly?
    Mr. Sheldon. No. This award does not provide funding for 
any direct services other than emergency services such as food, 
shelter, clothing, emergency medical services.
    Mr. Connolly. So it is presumably not about abortion. We 
were talking earlier, and my time ran out at that time, about 
the fact that the grant application talked about the need for 
the provision of family planning services. I assumed by that, 
that meant contraception. Is that correct?
    Mr. Sheldon. Contraception would be included in that.
    Mr. Connolly. What else would be included in that?
    Mr. Sheldon. Sterilization, abortion, the full range of the 
200 services that we have been previously talking about.
    Mr. Connolly. And heretofore the Catholic Bishops had been 
the recipient of this grant money; is that correct?
    Mr. Sheldon. That is accurate. Contract money.
    Mr. Connolly. And it was to provide contract services to 
treat the victims of human trafficking; is that correct?
    Mr. Sheldon. To provide case management services.
    Mr. Connolly. Case management. And, again, I was out of the 
room, but if I understood a previous exchange, under that 
contract 19 percent of the clients served were victims of 
sexual trafficking; is that correct?
    Mr. Sheldon. No, I think--and I would like to supplement 
this later--but I believe the actual number was about 19 
percent.
    Mr. Connolly. Right. That is what I said.
    Mr. Sheldon. I am sorry. I thought you said 90.
    Mr. Connolly. But are you familiar with the CRS study that 
says actually 79 percent of all trafficking victims are also 
victims of sex trafficking?
    Mr. Sheldon. I am not familiar with that specific study, 
but I am familiar generally with studies which indicate a 
higher percentage of individuals who are victims of sex 
trafficking or a combination of sex and labor trafficking.
    Mr. Connolly. Well, most of the victims, sadly, tragically, 
of human trafficking are female; is that not correct?
    Mr. Sheldon. That is correct.
    Mr. Connolly. And most of those victims, female victims, 
tragically are also victims of sexual trafficking; is that not 
correct?
    Mr. Sheldon. I believe that is accurate.
    Mr. Connolly. So was it the concern of the Department that 
given that data, that we had to shift the focus of the grant 
award to provide more aggressively family planning services, 
among others, to deal with sexually transmitted diseases and 
unwanted pregnancies or the prevention of unwanted pregnancies?
    Mr. Sheldon. Over the course of the last decade, we have 
learned more and more about human trafficking, and it was based 
on that that the Department made the determination included in 
this report.
    Mr. Connolly. All right. Here is what is bothering a lot of 
us, I think. The Catholic Bishops ranked number one, as I 
understand it, in the initial ranking?
    Mr. Sheldon. Number two.
    Mr. Connolly. Number two. But higher than others.
    Mr. Sheldon. Yes.
    Mr. Connolly. So why would we then, knowing that, actually 
deny them the award when they came in number two?
    Mr. Sheldon. The reviewers made several--and these are not 
talking points, this is a fact. The reviewers made several 
comments about a lack of detail in all of the applicants, but 
we went back to request additional information. The grant 
process also indicates that the scores are advisory in nature, 
that the ultimate decision to award or not award rests with the 
assistant secretary.
    Mr. Connolly. All right. I only have 35 seconds. In your 
opinion, Mr. Sheldon, having reviewed this case, and obviously 
preparing for this hearing today, did you find any evidence--do 
you believe there was any evidence of religious bias, of 
political bias, in favor or against the ultimate recipients of 
this grant money?
    Mr. Sheldon. I can state unequivocally there was not.
    Mr. Connolly. I am sorry, I didn't hear you.
    Mr. Sheldon. I can state unequivocally there was not.
    Mr. Connolly. And that is your testimony under oath?
    Mr. Sheldon. Under oath.
    Mr. Connolly. I thank you, Mr. Sheldon.
    Chairman Issa. I thank the gentleman. We now go to the 
gentleman from Pennsylvania, Mr. Kelly, for a second round.
    Mr. Kelly. Thank you, Mr. Chairman. And again, thanks for 
holding the hearing. Mr. Sheldon, Mr. Negash, thank you.
    Now, Mr. Sheldon, you have been on the job 6 months.
    Mr. Sheldon. That is correct.
    Mr. Kelly. I have only been on 10 months, so I know how you 
are feeling. I am getting blamed for a lot of things that 
happened before I got here, too. Anyways, because this is a 
very serious matter--but I want to go back to an earlier 
question. I would like all the documents, including emails, 
about the preferential language and any discussion regarding 
the conscience matter, because I think that is really crucial 
to what we are doing right now.
    Mr. Sheldon. Our staff will continue to work with your 
staff on producing those documents.
    Mr. Kelly. Okay, and I would sure appreciate that. The 
purpose of these hearings really, I cannot tell you, the way I 
look at it, to me there is such a bias. And, again, we got 
gamed on this one. We changed the language to eliminate some of 
the people that would have been normally included. So I think 
that is pretty clear to me and to any commonsense, thinking 
person.
    Having said that, Mr. Chairman, I am going to yield back my 
time. I have to run to another hearing.
    Chairman Issa. I thank the gentleman for yielding. And I 
will just continue on something.
    In 2009, isn't it true--this is before you came in, but 
this was during the Obama administration--the Council of 
Bishops in execution of this contract, this grant award, was 
rated outstanding, weren't they?
    Mr. Sheldon. I can't testify from my personal knowledge, 
but I believe that to be the case.
    Chairman Issa. Mr. Negash, how about your personal 
knowledge? Our indication is that they were awarded greater 
sums, they were listed as outstanding. Everybody at HHS was 
extremely satisfied with their performance year after year 
after year for 5 years under both Democratic and Republican 
Presidencies.
    Mr. Negash. I am not aware of any performance evaluation 
that they were graded.
    Chairman Issa. Okay. So here is the question we have been 
waiting all day to ask in a strange way, because I have 
listened to both majority and minority. The majority has asked 
questions about these numbers and the grant process. The 
minority has told us heart-wrenching stories about women who 
have been persecuted and dealt with in the worst possible way 
and raped. But these are the people that this organization that 
was summarily eliminated was dealing with successfully for half 
a decade, weren't they?
    Mr. Negash. It is my understanding, Mr. Chairman, this 
grant is not about providing direct services. My understanding 
is the national agency was having a relationship with 
subgrantees around the country.
    Chairman Issa. Yes, I understand that. But this 
organization for 5 years administered and provided excellent 
service in finding--finding, including your former 
organization--finding various people all over the country, 
including Georgia and other places. They found the people to 
provide the necessary services on a case-by-case basis to 
1,000-plus women a year.
    The fact is this is an organization that was compassionate 
and successful. It wasn't about the money. They don't apply for 
this for reasons of money. They apply because they want to 
provide this service. They administered it successfully for 5 
years. For 5 years, the women who had been raped, the women who 
had been tortured, the women who had real needs, including STDs 
to be taken care of, they were taken care of through this 
process.
    So my question to you, Mr. Sheldon, today is: In your 
consideration of how important this 20-plus point delta that 
had to be overcome to deny them any part of this grant, you did 
so of an organization that in the past had succeeded in spite 
of that, didn't you?
    Mr. Sheldon. They have succeeded, and they are continuing 
to succeed with human trafficking victims.
    Chairman Issa. I understand. But they succeeded on this 
contract effectively, this grant. This grant, these people. 
These people had succeeded in the past, and yet they were 
denied because of their religious beliefs preventing these 
three procedures, correct--or two procedures plus 
prescriptions?
    Mr. Sheldon. They have provided, as I indicated, a strong 
performance under the terms of the contract.
    Chairman Issa. Okay. That is a good point, and I thank you 
for that. The terms of the contract changed. Now, you keep 
going back to you asked the Bishops and you went back to them. 
I have become familiar during the intervening minutes with the 
Council of Bishops' response, and I read it differently than 
you do. I read their response in, if you will, this second 
round, which often when we find contract irregularities, when 
we find misconduct by bureaucrats or political appointees, what 
we find are the second or third rounds are usually used to game 
the system from the first round because they didn't like the 
outcome. But the Bishops said they were willing to consider 
alternative ways. As far as I read it, this was an outreach for 
you to find an alternative way, not for them to propose an 
acceptable alternative way, something that is acceptable to 
you.
    Do you see that somebody like myself could in common 
English find that interpretation?
    Mr. Sheldon. I felt by reaching back out to the Bishops and 
asking for alternatives that they would be willing to provide 
them.
    Chairman Issa. But can you see how I could find that 
reading?
    Mr. Sheldon. I understand where you're coming from.
    Chairman Issa. We'll take that as a yes.
    We now recognize the gentleman from Oklahoma, Mr. Lankford, 
for 5 minutes.
    Mr. Lankford. Thank you, Mr. Chairman.
    This new language that was added in, it is different than 
the previous contract that for 5 years they had. Obviously, 
they have done a good job on it in the past. That is well 
established. There was some decision made at some point, I 
assume based on data. Is there data out there somewhere saying 
there was a portion of individuals that were interested in 
these other abortions and contraceptives and such that didn't 
get it and had complained back, or was there some study that 
was done determining that this was not being provided and this 
was a problem?
    Mr. Sheldon. There is research indicating the needs of this 
population, and based on that research--and we would be happy 
to provide that----
    Mr. Lankford. I am just wondering. In the specific 
fulfillment of the contract, there was data that was provided, 
saying that these things are needed and they are not being 
provided, and the Catholic Bishops are prohibiting this. 
Because obviously the Catholic Bishops are not providing the 
health care, so they are sending them to clinics, and then the 
HIPAA laws kick in, and they don't know what is happening at 
that point. They are the caseworkers that are connecting them 
with the clinic, and then health care is provided there. So I 
would assume there is some data saying ``and they were 
prevented from getting these services.''
    Mr. Sheldon. What I can indicate and we will provide you is 
the provisions that they provided in their subcontracts to 
subgrantees restricting the options that those----
    Mr. Lankford. Restricting payment for that, correct? It is 
not saying you can't do it, but saying don't ask us for 
repayment for these services.
    Mr. Sheldon. We will provide the specific information to 
you.
    Mr. Lankford. Okay, that will be great. Because my 
understanding was they're not saying you can't do that, you are 
prohibited; we are going to reach into your doctor's office and 
tell you what to do and what not to do. They are just saying if 
this is performed, don't bill us for it because we don't 
reimburse for that.
    Mr. Sheldon. Well, under the terms of the the original 
contract as well as the terms of this grant, none of the 
dollars in this grant are for the actual delivery of services.
    Mr. Lankford. That is what I am saying. That relationship, 
they aren't prohibiting it, they're basically saying you won't 
be reimbursed through us, or that is not something we 
encourage.
    Mr. Sheldon. I would be happy to provide the specifics, 
but----
    Chairman Issa. If the gentleman would yield for a second, 
stop the clock. For the record, when I opened and mentioned the 
documents that we had obtained that had not been provided by 
HHS that the press have, which I understand have now been 
accepted and hopefully the reservation is now withdrawn--it is 
withdrawn. Additionally, the documents which the gentleman is 
saying he will provide were requested and have not yet been 
delivered.
    So although I appreciate your saying you will deliver them, 
we will expect full supplemental responses in writing or we 
will bring you all back, because this is part of our problem is 
that these documents which we suspect say what Mr. Lankford is 
saying, we won't know for sure.
    So if you can, to the greatest extent possible, make 
assumptions of what you believe they say, it will prevent 
coming back, because we are all pretty sure that Mr. Lankford 
is correct as to his assertions.
    Mr. Sheldon. We will do that. But I also would be happy to 
come back.
    Chairman Issa. You are a first. With that, the gentleman 
may resume.
    Mr. Lankford. Thank you, Mr. Chairman. Then with this shift 
in what happened to the previous contract, there had to be a 
decision made at some point that based on data or based on 
decisions saying this was a problem, they did great in all 
these six areas, except they didn't encourage people to have 
abortions or encourage contraceptives. Because, obviously, as 
you mentioned before, they are not providing, they are just 
encouraging and sending that message out. So because they are 
not encouraging contraceptives or they are not encouraging 
abortions, we are going to put language in there to make sure 
they do next time.
    Who made that decision and when was that decision made?
    Mr. Sheldon. Well, that decision was made, again, prior to 
my getting here. But it's my understanding, it was made based 
on research in terms of the needs of this particular 
population.
    Mr. Lankford. And the fact that it wasn't fulfilled in the 
previous contract; or just other research, separate from that?
    Mr. Sheldon. Other research, separate.
    Mr. Lankford. If there is a change in the language on that, 
who made that decision then? When was that decision made?
    Mr. Sheldon. I believe that was a collaborative decision in 
the establishment of the FOA.
    Mr. Lankford. Mr. Negash, can you help us out, because 
obviously you were there at that time?
    Mr. Negash. I believe that the process of developing the 
FOA, the Office of General Counsel, the policy expert within 
SCF and HHS, including the leadership, made a point to include 
that language.
    Mr. Lankford. Okay. So can you list names that you say 
there? You listed titles. Can you list names of the people 
involved?
    Mr. Negash. Well, I believe the Office of the Assistant 
Secretary at that time, not Mr. Sheldon; the Office of General 
Counsel. I can give you the list of who those people are. And, 
I believe, the Office of the Secretary.
    Mr. Lankford. Okay. So Kathleen Sebelius was involved in 
that as far as making that decision to have that language 
involved?
    Mr. Negash. I don't have any contact with the Secretary.
    Mr. Lankford. Right. But it came in from that office.
    Mr. Negash. I believe the Office of the Secretary was 
reviewing this.
    Mr. Lankford. The issue is--and this is something we have 
talked about in contract writing and in grant writing, and the 
reason I bring all this up is because at times grants and 
contracts are written in such a way to deliberately exclude 
people, and to say I am going to write this in such a way to 
make sure only a certain group would be eligible for this.
    And if this language is written in such a way, there are a 
couple problems here. One is the clarity of the exclusion. To 
say that there is a priority or we are looking at it or this is 
important to us is one thing. But to say, unless you encourage 
abortions and contraceptives, you need not apply, that 
certainly definitely is not in there. But the way the language 
is written it establishes a process that, hey, anyone who has 
this belief should not apply unless you are willing to give up 
your beliefs. Unless you are willing to encourage abortions, 
don't come. So the language is written in such a way to exclude 
a group that had currently done it for quite a significant time 
and had done a good job.
    What I am interested in, is there data that is connected to 
that saying: This was a problem in the previous 5 years. Based 
on this data, we found this data from doing this, and so we 
need to make this shift to purposely exclude the group that had 
done it in the past that had high marks.
    So that is the struggle here. And it goes into the whole 
essence of how we write grants and how we write the proposal. 
If the administration has determined in these areas you have to 
promote abortions or we don't give you U.S. funds, say it. Just 
come out and say it. Don't go through the whole dog-and-pony 
show. Make it clear at the very beginning to keep that 
priority.
    So with that, I will yield back.
    Chairman Issa. I thank the gentleman.
    We now recognize the ranking member for 5 minutes.
    Mr. Cummings. Mr. Sheldon, if the Catholic Bishops had come 
back after they told you they had some alternatives and said 
these are the alternatives, what would have happened? I am not 
saying--I mean, what would have been the process then? In other 
words, they come back here, these are our alternatives. What 
would have been the process then? Would there be a possible--I 
know it depends on what they would say. But would there have 
been a possible rescoring? What would happen? What would be the 
process? I am not asking you for the results. The process.
    Mr. Sheldon. No. We would have analyzed that in addition to 
the reviewers' comments, in addition to the responses of the 
other entities. And we had indicated in the funding 
announcement that we intended to have multiple grantees, as 
opposed to just one grantee.
    Mr. Cummings. And, Mr. Sheldon, according to the grant 
announcement, the scores do not take into account the 
preference for applicants who can provide a full range of 
services. The funding announcement states ``Applicants applying 
to provide less than the full set of services and referrals 
described under `case management' will not receive a reduction 
in points in this section unless the limitations are likely to 
impede a victim's ability to become certified and meet their 
food, clothing, shelter and emergency health care needs.''
    Why did the scores not take into account the strong 
preference for a full set of services and referrals?
    Mr. Sheldon. Because it was a preference as opposed to a 
requirement of the contract.
    Mr. Cummings. And so I would like to better understand just 
by walking you through the review process. After applications 
were received, reviewers gave out scores but they did not give 
a recommendation as to which groups they thought should get the 
grants.
    Mr. Sheldon. That is correct.
    Mr. Cummings. Is that right?
    Mr. Sheldon. That is correct.
    Mr. Cummings. So they gave out scores, but they didn't say 
who should get them. After the scores were given, there were 
followup questions for some applicants. Were the answers to 
these questions taken into account in awarding the grants?
    Mr. Sheldon. Yes.
    Mr. Cummings. Did other applicants have questions--in other 
words, was there some follow-up with the other applicants also?
    Mr. Sheldon. There were questions, and we can provide 
those. There were questions to all of the applicants patterned 
after the reviewers' comments as to what weaknesses existed in 
each of those individual applications.
    Mr. Cummings. Now, do you ever change the scores based on 
this type of additional information that might come in?
    Mr. Sheldon. You would change the decision. You wouldn't go 
back retroactively and change the scores.
    Mr. Cummings. Okay. You might change the decision. So what 
decision are you talking about? I thought you hadn't made the 
decision yet.
    Mr. Sheldon. We hadn't made the decision yet.
    Mr. Cummings. I am sorry?
    Mr. Sheldon. We had not made the decision at that point.
    Mr. Cummings. So in other words, you may have been 
contemplating a decision?
    Mr. Sheldon. We were--I wanted to wait until we got the 
responses to the questions that we had asked all the 
applicants.
    Mr. Cummings. Okay. Now, were the Catholic Bishops the only 
ones that did not, you know, give responses other than saying 
they had alternatives?
    Mr. Sheldon. No, they provided a response. Because it 
wasn't just on this issue. We also asked them for clarification 
on their cost per client. But we can provide that, because it 
wasn't just targeted to that one issue.
    Mr. Cummings. Okay. And after the grants were awarded, were 
the applicants informed as to why they were rejected, and if 
not, why not? In other words, did you inform them as to why----
    Mr. Sheldon. I believe we--Ms. Kinder, can you help me with 
that? I think that they were indicated as to what the decision 
was. I did personally meet with representatives of the U.S. 
Conference of Catholic Bishops at their request, after the 
decision had been made, to kind of lay out the rationale for 
the decision.
    Mr. Cummings. And did they complain that they had been 
discriminated against?
    Mr. Sheldon. They did not complain that they had been 
discriminated against. They did indicate that they would look 
at their full range of options as to----
    Mr. Cummings. They said they would do what?
    Mr. Sheldon. Well, I can't--I am paraphrasing what they 
said.
    Mr. Cummings. Well, paraphrase as best you can.
    Mr. Sheldon. That they would look at the full range of 
options that they might have. And I took that to mean a 
potential challenge to the award.
    Mr. Cummings. And did they challenge it yet?
    Mr. Sheldon. They did not.
    Mr. Cummings. Mr. Sheldon, I understand that you are a 
political appointee and that you made this award decision which 
has been sufficient for some to claim that the grant decision 
was politicized. Was it appropriate for you to make the 
decision?
    Mr. Sheldon. All assistant secretaries, to my knowledge, 
historically are given the authority to make decisions on 
grants. As a matter of fact, in the Administration for Children 
and Families, I approve all grant awards.
    Mr. Cummings. And did you or anyone else at HHS give any of 
the applicants an unfair advantage during the process?
    Mr. Sheldon. No.
    Mr. Cummings. And what was your primary purpose and goal 
when you made your decision about the grants?
    Mr. Sheldon. My primary purpose and goal, as I indicated in 
my opening statement, is what was in the best interest of these 
victims.
    Mr. Cummings. Finally, and thank you for your indulgence, 
Mr. Chairman--so it was not a decision based on promoting a 
political party or a decision based on your dislike of the 
principles of the Catholic Bishops; is that right?
    Mr. Sheldon. That is correct.
    Mr. Cummings. As I said in the beginning of the hearing, 
the ultimate goal here today is to help the victims. We would 
all benefit from hearing the voices of the human trafficking 
victims and their advocates on why reproductive health services 
are so critical, and I am sure we will in the future.
    Mr. Sheldon and Mr. Negash, I want to thank both of you 
very much.
    Chairman Issa. I thank the gentleman.
    In order to preserve the normal member going last, what I 
am going to do is skip this round and recognize the gentleman 
from New Jersey, and then I will wrap up with just a few 
questions.
    The gentleman is recognized for 5 minutes.
    Mr. Smith of New Jersey. Mr. Sheldon, the FOA says that 
preference will be given to grantees under FOA that will offer 
all victims referral to a medical provider who can provide or 
refer for the treatment of--and, of course, the gynecological 
services in question here is abortion. Given this language, how 
are grantees able to use any pro-life providers, even pro bono 
health providers who are pro-life?
    Mr. Sheldon. There are several subgrantees to the current 
grantees who are faith-based pro-life.
    Mr. Smith of New Jersey. But they are not bound--I am 
talking about the referral to the victims, who they refer to in 
terms of health care, the actual health care. This reads, plain 
reading of the language, that we are talking that all victims' 
referral to medical providers who can provide or refer for 
provision of treatment for abortion.
    So does this direct these individuals now to Planned 
Parenthood? We know that at least one of the applicants who got 
the award is looking to contract and set up an alliance with 
Planned Parenthood. I mean, it precludes--it would seem on the 
face of it that pro-life OB-GYNs, for example, are out of the 
mix. Is that true?
    Mr. Sheldon. I don't believe that is the case. As a matter 
of fact----
    Mr. Smith of New Jersey. Would you clarify that for the 
record?
    Mr. Sheldon. As I indicated, there are several subgrantees 
of the new grantees----
    Mr. Smith of New Jersey. Again, I am talking specifically 
about referral for medical care, that they be providers of 
abortion. That is what it reads.
    Mr. Sheldon. The decision as to what the outcome of that 
would be, as it has historically been in this country, has been 
between the medical provider and the woman, and there is no 
difference in this----
    Mr. Smith of New Jersey. The USCCB did that, as you know. 
They were out of it, as the chairman mentioned earlier, under 
HIPAA.
    Mr. Sheldon. I think if you will look at the language of 
the USCCB, you will find it was much more restrictive than 
that.
    Mr. Smith of New Jersey. Okay, you can clarify the original 
question for the record in written form.
    Let me ask you, is the strong preference language for 
abortion in any way related to the ACLU lawsuit? Did anyone 
from or associated with the ACLU encourage the change in the 
contract? Was it anyone within the Obama administration? Again, 
getting back to origins, whose idea was this, and did this 
language in any way emanate or was it supported by or perhaps 
posed by any pro-abortion NGO? First question.
    Second, on capacity: Tapestry in its application said it 
had $400,000 annually, which means that this grant alone that 
it got will triple what it has at its disposal to use. ORR said 
it would give priority to those organizations whether 
established nationwide or geographically in structure. We are 
talking about a group that may not be able to meet this huge 
burden that has been put on them, again, the tripling.
    Let me ask Mr. Negash, did HHS make changes to the funding 
opportunity announcement specifically to evade the conscience 
protections currently in law?
    Mr. Negash. Throughout the development of the funding 
announcement, we actually worked with the Office of General 
Counsel to make sure that the language in the funding 
announcement was consistent with existing laws.
    Mr. Smith of New Jersey. So it wasn't in any way, shape, or 
form to evade the conscience clause by writing the specs in a 
way that Catholic USCCB need not apply?
    Mr. Sheldon. I believe that the funding announcement was 
written not to include or exclude anybody.
    Mr. Smith of New Jersey. Could I get, could we get, the 
committee get, a copy of the general counsel's written 
statement, advice, guidance, whatever it is they conveyed to 
you to make these decisions at the time that these decisions 
were being made? Not now. We want to know what was 
contemporaneous with the decisionmaking process. Could you do 
that?
    Mr. Negash. I believe so.
    Mr. Smith of New Jersey. Let me--again, with the ACLU case, 
if you could speak to this, Mr. Sheldon. Was it ever discussed? 
Was the ACLU in contact? Please respond.
    Mr. Sheldon. I was aware of the ACLU lawsuit, but it was 
not discussed in conjunction with the decisionmaking process.
    Mr. Smith of New Jersey. At all?
    Mr. Sheldon. At all. Or to my knowledge, was ACLU 
contacted. They were not contacting me. I do not believe they 
were contacting anybody in the Administration for Children and 
Families.
    Mr. Smith of New Jersey. Are each of the grantees as of 
December 1st, as of today, performing exactly as prescribed in 
the FOA?
    Mr. Sheldon. I believe that they are--in response to that, 
yes, I believe they are.
    Mr. Smith of New Jersey. Could you provide a detailed 
analysis, a snapshot as of today, whether or not there has been 
a diminution of service as the baton has been handed over from 
the USCCB to the three NGO's?
    Mr. Sheldon. Yes.
    Mr. Smith of New Jersey. And finally with regard to 
training, FOA was very clear about training. As a matter of 
fact, the language of the legislation was----
    Chairman Issa. If the gentleman would make this his last 
question, please.
    Mr. Smith of New Jersey. I am out of time. Okay. Do I have 
time for the question?
    Chairman Issa. We will be indulgent for a last question, 
but we are going to wrap up very soon. We have technically gone 
over our limit.
    Mr. Smith of New Jersey. Mr. Chairman, thank you very much.
    From the information provided to the company, it appears 
only one of the successful applicants, Heartland, included 
something approaching the required certification on training. 
If this is correct, does HHS think it is appropriate for the 
well-being and recovery of trafficking victims for the persons 
providing services to have completed training in connection 
with trafficking persons? Why and how was this overlooked?
    Mr. Sheldon. I believe with all of the grantees, that we 
ultimately made the decision are qualified to provide these 
services.
    Mr. Smith of New Jersey. Training.
    Mr. Sheldon. Yes.
    Mr. Smith of New Jersey. So you say they are adequate and 
they are ready to go right now.
    Mr. Sheldon. I believe so.
    Mr. Smith of New Jersey. Could you back that up as well for 
the written record with precision?
    Mr. Sheldon. Yes.
    Chairman Issa. I thank you for your participation here 
today.
    I recognize myself. I am going to try to close up on a 
number of issues.
    Following up with Mr. Smith, on Tapestry, an organization 
with only a few hundred thousand dollars in revenue, a CFO who 
is not qualified by your own statements, I would appreciate 
your coming back and making for the record some documentation 
of why they were not at a minimum high risk for people already 
at high risk. I think it is one of the areas that hasn't been 
focused on enough. But clearly we are going to follow up, 
because from our evaluation, notwithstanding that you could 
have awarded to only one organization or only two--and you only 
had one other national organization--to pick an organization 
that had almost no revenues, the CFO, one of the most critical 
people in this kind of activity, having no qualifications in 
this area, does beg the question of competence that we are 
seriously concerned about. Because we think that numbers were 
in some ways not even as positive of the difference in these 
organizations.
    Again, I would have respected a single award not to the 
Catholic Bishops perhaps more than the award the way we saw it.
    But let me go through the question that has occupied most 
of the time today. Under the executive order, I am going to 
read a portion of it to make sure we get it officially in the 
record, but additionally the executive order will be placed in 
the record, without objection.
    But what I read in G, for faith-based organizations in this 
executive order, it says, ``Accordingly, the faith-based 
organization that applies for or participates in a social 
service program supported with Federal financial assistance,'' 
and this sort of broadly qualifies in that definition, 
obviously, ``may retain its independence and may continue to 
carry out its mission, including the definition, development, 
practice and expression of its religious beliefs,'' and this is 
the limitation, I want to make sure it gets in here too, 
``provided that it does not use direct Federal financial 
assistance that it receives for that purpose.''
    Now, that is the operative language that we found and 
believe applies. In the response that goes back to this that we 
have been talking about, their response that you were not 
satisfied with, it says ``USCCB/MRS is committed to acting in 
accordance with Catholic teachings in administering the 
program, including the determination of allowable and 
unallowable costs.''
    Now for my question: If the Catholic Bishops, and I am an 
Antiochian Catholic so it is not my denomination but I am very 
familiar with it--if the Catholic Bishops had told you how to 
work around getting an abortion or birth control, wouldn't you 
agree, since you are familiar at least somewhat with it, that 
they would be violating their requirements? In other words, we 
would all be appalled if a Catholic priest, or a bishop in this 
case, told you how to get an abortion for a girl around them. 
Wouldn't that be wrong under their teachings, very clearly?
    Mr. Sheldon. Yes. And in effect, what other faith-based 
organizations have done is not taken responsibility for that 
particular victim.
    Mr. Smith of New Jersey. And that certainly would have been 
a potential workaround. But they couldn't--they under their 
faith, as I read it, could not be persecuted for not having an 
answer that would cause them to tell you how to basically do an 
abortion around them. So their canons of ethics, their vows, 
prohibited them from answering the question that you say you 
went to them to get, which is how do we work around your 
problem on providing abortions and birth control and 
sterilization.
    They gave you an answer that they were willing to work with 
your workarounds, but they couldn't, they clearly under their 
religious protected faith-based executive order and supportive, 
they couldn't tell you how to work around it.
    Now, you just gave me the answer I have been waiting for 
all day. It is clear you could have said we need to have a 
provision that you don't take cases of pregnant refugees; that 
when a refugee is determined to be pregnant, that in fact you 
not take them. Additionally, you could have said, for example--
and I am not trying to run your Department, I woefully would be 
inadequate to do any one part of government. You could have 
said that certain sub-vendors had to be picked, and that they 
had to be allowed to communicate pursuant to your needs to 
other organizations. And in most cases the clinics would have 
already done this anyway. You could have proposed those, 
couldn't you?
    Mr. Sheldon. We got a response from another applicant which 
basically indicated how they would treat people of faith, 
people of Catholic teaching, and they volunteered that they 
would not refer victims to that particular entity.
    Chairman Issa. Okay. So the system could have recognized, 
if you use my example, because I grew up in a Jewish 
neighborhood, of the Orthodox Jew unable to drive you on Friday 
night. You could have suggested an effective workaround. They 
might have rejected it, might have accepted it, might have 
said, ``We can't answer it, but we will perform to the best of 
our duty under the rules that you give us,'' which probably 
would have been their answer, which is, ``We can't condone your 
decision, we can't predict the outcome, but we will do what we 
can do.''
    And, by the way, the fact that they didn't complain, my 
understanding is Christ didn't complain on the cross either. 
Ultimately, some organizations do not complain as a matter of 
their faith.
    So, back to the real question that I want to close with, in 
this and dozens or hundreds or thousands of other examples that 
could occur in government when trying to deal with the 
Executive order, isn't it within your authority under current 
law and, at least in my opinion, within your responsibility to 
try to find ways to move these two together?
    And in the future--because this one is in our taillights--
in the future, wouldn't it be prudent for Health and Human 
Services and other government agencies to say, look, we have to 
look at effective ways to get around the rabbi who can't drive 
to work after sundown on Friday, so to speak, and/or the 
Catholics who cannot perform abortions? Isn't that something, 
that if, in fact, Congress has said, in the case of rape of a 
woman, an abortion is legal, to be paid for by government--that 
is the current law, as I understand it--if that is the case and 
somebody can't participate in it, isn't, under the Executive 
order, it prudent that you develop the ability to reconcile to 
that limited extent rather than only promoting organizations 
who, from some of our Members, believe would promote abortion 
rather than the litmus test of could they participate in legal 
events?
    Mr. Sheldon. And that is exactly what I was trying do by 
going back to the U.S. Conference of Catholic Bishops. We may 
disagree about where the primary responsibility----
    Chairman Issa. But you don't disagree that a Catholic 
bishop who tells you how to get a girl an abortion would be 
going outside his beliefs. I mean, you already answered, yes, 
you got that, that he couldn't--he or--in this case, only 
``he's--couldn't tell you how to do it. So why, in a way, did 
you expect to get an answer from the Catholic Bishops of how to 
work around getting a girl an abortion? Isn't that 
fundamentally, perhaps in hindsight, a mistake, where there 
should have been an initiative by HHS not asking people of 
faith to do and say and help you do what they cannot?
    Mr. Sheldon. I was basically taking the U.S. Conference of 
Catholic Bishops at their word when they basically said, we 
would be willing to work on an alternative.
    Chairman Issa. Right, they would work with an alternative. 
They could not give you that alternative. They could not tell 
you how to provide an abortion to somebody, because it is 
outside their faith.
    I have gone way over my time. You have all been very 
indulgent. We do look forward to getting the rest of the 
materials for the record.
    Again, the ranking member has a motion at this time. If he 
would like to bring it up and discuss it, I certainly would be 
willing to.
    Mr. Cummings. I, too, want to thank you all, first of all, 
for your testimony.
    Mr. Chairman, I had said at the beginning that we wanted to 
give more voice to the victims. And we ask for a day of 
hearings because we did not have those voices here today. And 
so, I think we need to do both. I think we need to have 
additional hearings as our committee, and I am asking for the 
minority to have hearings, and we would love to have them next 
week. And so I renew my motion, or request.
    Chairman Issa. The letter has been received, and we will 
advise you.
    Mr. Cummings. Thank you.
    Chairman Issa. And, with that, the hearing is concluded and 
adjourned.
    [Whereupon, at 12:39 p.m., the committee was adjourned.]
    [The prepared statement of Hon. Gerald E. Connolly and 
additional information submitted for the hearing record 
follow:]

[GRAPHIC] [TIFF OMITTED] T3939.041

[GRAPHIC] [TIFF OMITTED] T3939.042

[GRAPHIC] [TIFF OMITTED] T3939.043

[GRAPHIC] [TIFF OMITTED] T3939.044

[GRAPHIC] [TIFF OMITTED] T3939.045

[GRAPHIC] [TIFF OMITTED] T3939.046

[GRAPHIC] [TIFF OMITTED] T3939.047

[GRAPHIC] [TIFF OMITTED] T3939.048

[GRAPHIC] [TIFF OMITTED] T3939.049

[GRAPHIC] [TIFF OMITTED] T3939.050

[GRAPHIC] [TIFF OMITTED] T3939.051

[GRAPHIC] [TIFF OMITTED] T3939.052

[GRAPHIC] [TIFF OMITTED] T3939.053

[GRAPHIC] [TIFF OMITTED] T3939.054

[GRAPHIC] [TIFF OMITTED] T3939.055

[GRAPHIC] [TIFF OMITTED] T3939.056

[GRAPHIC] [TIFF OMITTED] T3939.057

[GRAPHIC] [TIFF OMITTED] T3939.058

[GRAPHIC] [TIFF OMITTED] T3939.059

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
